No. 21In the

Supreme Court of the United States
KHALID M. TURAANI,
Petitioner,
v.
CHRISTOPHER WRAY, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI
Christina A. Jump
Counsel of Record
A llie J. Hallmark
A lyssa F. Morrison
Constitutional Law Center
for Muslims in A merica
100 North Central Expressway,
Suite 1010
Richardson, TX 75080
(972) 914-2507
cjump@clcma.org
Counsel for Petitioner
304942

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED FOR REVIEW
The Privacy Act prohibits unlawful disclosures by
government officials to those with no need to know.
Petitioner Khalid Turaani brings this action in response
to statements by federal officers to third parties that he is
the subject of a federal investigation and that “we don’t like
the company he keeps.” These disclosures have a coercive
chilling effect on Mr. Turaani’s right to make lawful
constitutional purchases, including exercising his Second
Amendment rights, and also damage his reputation in the
community.
Mr. Turaani brought suit in 2017 for infringement on
his Second Amendment rights. Dismissing his Second
Amendment claims, the district court noted then that
“Turaani is correct that the FBI agent violated 28 C.F.R.
§ 25.8(g)(2) [the Privacy Act] by disclosing that Turaani
was the target of an FBI investigation.” Mr. Turaani next
brought suit under the Privacy Act in 2019 after more
disclosures. The district court dismissed his Privacy Act
claims, applying the same analysis the prior court had
for his Second Amendment claims. The Sixth Circuit
affirmed.
The question presented is:
Whether the standing analysis for Privacy Act
improper disclosure claims requires determining if the
plaintiff sufficiently alleged an “adverse effect” to satisfy
traceability, as recognized by previous decisions of this
Court, as opposed to requiring allegations of a “command”
or “compulsion.” If so, does a plaintiff demonstrate that
adverse effect by alleging that the government’s improper
disclosures produced a determinative or coercive effect on
a third party who refuses to do business with the plaintiff?

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner Khalid Turaani was the Plaintiff in
the district court case in this matter, as well as the
Appellant before the Sixth Circuit. Defendants in
the prior proceedings were Christopher Wray, in his
official capacity as Director of the Federal Bureau of
Investigation, Charles H. Kable, IV, in his official capacity
as Director of the Terrorist Screening Center, and Jason
Chambers in his individual capacity. Respondents at this
level of the proceeding remain the same.

iii
RELATED CASES
Turaani v. Wray, No. 20-1343, U.S. Court of Appeals
for the Sixth Circuit. Judgment entered Feb. 18, 2021.
Turaani v. Wray, No. 19-11768, U.S. District Court
for the Eastern District of Michigan, Southern Division.
Judgment entered Feb. 20, 2020.
Turaani v. Sessions, No. 17-14112, U.S. District Court
for the Eastern District of Michigan, Southern Division.
Judgment entered June 7, 2018.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS BELOW . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
PERTINENT PROVISIONS . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
I.

Improper Disclosure Under the Privacy
Act  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

II. NICS Background Checks and the Stated
Limits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
III. The Government Improperly Disclosed
Confidential Information to Third Parties
Regarding Mr. Turaani . . . . . . . . . . . . . . . . . . . . . 8

v
Table of Contents
Page
IV. The District Court Dismissed Mr. Turaani’s
Suit Without Considering the Specific
Claims Raised Here . . . . . . . . . . . . . . . . . . . . . . . 10
V.

The Sixth Circuit Affirmed the District
Court, Also Ignoring the Specific Nature
of Privacy Act Disclosure Claims . . . . . . . . . . . . 12

REASONS FOR GRANTING THE PETITION . . . . 13
I.

A Circuit Split Exists as to Whether
Adverse Effects Determine Standing in
Privacy Act Disclosure Claims . . . . . . . . . . . . . . 15
A. Four circuits apply the reasoning in Chao
and consider adverse effects to decide
whether the plaintiff has standing . . . . . . .  17
B. The Sixth Circuit’s decision below and
the Fourth Circuit do not consider the
adverse effects in deciding standing . . . . . 19

II. The Sixth Circuit Applied a Narrow View
of Traceability Not Consistent with the
Statute or This Court’s Precedent . . . . . . . . . . . 21
III. T his Case P resent s Impor t ant and
Recur r ing Questions W hich Can Be
Resolved by a Ruling from This Court . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

vi
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR T H E SI X T H CI RCU I T, FI LED
FEBRUARY 18, 2021 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
EA STERN DISTRICT OF MICHIGA N,
S OU T H ERN DI V ISION, DAT ED
FEBRUARY 20, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . 9a
A P P E N DI X C — O P I N ION O F T H E
UNITED STATES DISTRICT COURT
FOR T H E E A ST ER N DI ST RIC T OF
M ICH IGA N, S OU T H ERN DI V ISION,
FILED JUNE 7, 2018 . . . . . . . . . . . . . . . . . . . . . . . . 22a

vii
TABLE OF CITED AUTHORITIES
Page
Supreme Court Cases
Amos v. United States,
255 U.S. 313 (1921)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Bennett v. Spear,
520 U.S. 154 (1997) . . . . . . . . . . . . . . . . . . . . . . . passim
Bivens v. Six Unknown Named Agents of Fed.
Bureau of Narcotics,
403 U.S. 388 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
DaimlerChrysler Corp. v. Cuno,
547 U.S. 332 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Davis v. Fed. Election Comm’n,
554 U.S. 724 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Dir., Off. of Workers Comp. v.
Newport Shipbuilding & Dry Dock Co.,
514 U.S. 122 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Dist. of Columbia v. Heller,
554 U.S. 570 (2008). . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Doe v. Chao,
540 U.S. 614 (2004)  . . . . . . . . . . . . . . . . . . . . . . . passim
Fed. Aviation Admin. v. Cooper,
566 U.S. 284 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . 5, 27

viii
Cited Authorities
Page
Healy v. James,
408 U.S. 169 (1972)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Lujan v. Defs. of Wildlife,
504 U.S. 555 (1992) . . . . . . . . . . . . . . . . . . . . .  11, 14, 21
TransUnion LLC v. Ramirez,
594 U.S. __ (2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Valley Forge Christian Coll. v. Ams. United for
Separation of Church & State,
454 U.S. 464 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Circuit Court Cases
Beck v. McDonald,
848 F.3d 262 (4th Cir. 2017) . . . . . . . . . . . . . . . . . . . . 19
Brackeen v. Haaland,
994 F.3d 249 (5th Cir. 2021) . . . . . . . . . . . . . . . . . 23, 24
Campeau v. Soc. Sec. Admin.,
575 F. App’x 35 (3d Cir. 2014) . . . . . . . . . . . . . . . . . . .  17
Cmty. for Creative Non-Violence v. Pierce,
814 F.2d 663 (D.C. Cir. 1987) . . . . . . . . . . . . . . . . . . . 24
Crawford v. U.S. Dep’t of Treasury,
868 F.3d 438 (6th Cir. 2017) . . . . . . . . . . . . . . 12, 22, 25

ix
Cited Authorities
Page
Downie v. City of Middleburg Heights,
301 F.3d 688 (6th Cir. 2002) . . . . . . . . . . . . . . . . . . . . 29
K.P. v. LeBlanc,
627 F.3d 115 (5th Cir. 2010)  . . . . . . . . . . . . . . . . . . . . 23
Mendia v. Garcia,
768 F.3d 1009 (9th Cir. 2014)  . . . . . . . . . . . . . . . . 16, 24
Orekoya v. Mooney,
330 F.3d 1 (1st Cir. 2003)  . . . . . . . . . . . . . . . . . . . . . . 18
Parsons v. U.S. Dep’t of Just.,
801 F.3d 701 (6th Cir. 2015)  . . . . . . . . . . . . . . . . . . . . 12
Pitt News v. Fisher,
215 F.3d 354 (3d Cir. 2000) . . . . . . . . . . . . . . . . . . . . . 23
Quinn v. Stone,
978 F.2d 126 (3d Cir. 1992) . . . . . . . . . . . . .  6, 17, 18, 19
Skyline Wesleyan Church v.
Cal. Dep’t of Managed Health Care,
968 F.3d 738 (9th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 24
Speaker v. U.S. Dep’t of Health & Hum. Servs.
Ctr. for Disease Control & Prevention,
623 F.3d 1371 (11th Cir. 2010)  . . . . . . . . . . . . . . . . . . 18

x
Cited Authorities
Page
Stormans, Inc. v. Selecky,
586 F.3d 1109 (9th Cir. 2009) . . . . . . . . . . . . . . . . . . . 24
Sweeney v. Chertoff,
178 F. App’x 354 (5th Cir. 2006) . . . . . . . . . . . . . . . . . 18
Tex. Ass’n of Mfrs. v.
U.S. Consumer Prod. Safety Comm’n,
989 F.3d 368 (5th Cir. 2021) . . . . . . . . . . . . . . . . . . . . 23
Tozzi v. Dep’t of Health & Hum. Servs.,
271 F.3d 301 (D.C. Cir. 2001) . . . . . . . . . . . . . 16, 24, 25
Vapor Tech. Ass’n v. U.S. Food & Drug Admin.,
977 F.3d 496 (6th Cir. 2020) . . . . . . . . . . . . . . . . . 12, 13
District Court Cases
Coker v. Barr,
2020 U.S. Dist. LEXIS 255249
(D. Colo. Sept. 15, 2020) . . . . . . . . . . . . . . . . . . . . . . . 22
Turaani v. Sessions,
316 F. Supp. 3d 998 (E.D. Mich. 2018) . . . . . . . . . . . . . 4
Statutes
5 U.S.C. § 552a  . . . . . . . . . . . . . . . . . . . . . . . . . . . 26, 27, 28
5 U.S.C. § 552a(e)(10) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

xi
Cited Authorities
Page
5 U.S.C. § 552a(g)(1)(D) . . . . . . . . . . . . . . . . . . . . . 6, 15, 19
5 U.S.C. § 706(2)(A)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
18 U.S.C. §922(g)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
18 U.S.C. § 922(t)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
18 U.S.C. § 922(t)(1)(B)(ii)  . . . . . . . . . . . . . . . . . . . . . . . . . 7
42 U.S.C. § 1981  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Rules
Fed. R. Civ. P. 12(b)(1)  . . . . . . . . . . . . . . . . . . . . . . . . .  11
Fed. R. Civ. P. 12(b)(6)  . . . . . . . . . . . . . . . . . . . . . . . . .  11
Regulations
28 C.F.R. § 25.2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
28 C.F.R. § 25.3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
28 C.F.R. § 25.6(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10
28 C.F.R. § 25.6(c)(iv) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
28 C.F.R. § 25.8(g)(2) . . . . . . . . . . . . . . . . . . . . . . 3, 4, 6, 10

xii
Cited Authorities
Page
Secondary Sources
16 2 C o n g . R e c . 9 8 , S 4 3 4 6 (d a i l y e d .
June 20, 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Overview of the U.S. Government’s Watchlisting
Process and Procedures as of January 2018  . . . . . . 7
Stephen M. Shapiro, et al., S u preme C ourt
	Practice § 4.15 (11th ed. 2019) . . . . . . . . . . . . . . . . . . 28
U.S. G ov ’t Accountability Off., GAO-10-703T,
Terrorist Watchlist Screening: FBI Has
Enhanced its Use of Infor mation from
Fir ear m an d Ex pl os ives Ba ck g r o un d
Checks to Support Counterterrorism Efforts
(May 5, 2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
U.S. G ov ’t Accountability Off., Summary of
Recommendations – The 9/11 Commission
Report, 2004 U.S. Comp. Gen. LEXIS 278
(Sept. 9, 2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
U.S. G ov ’ t A ccounta bilit y O ff., Update on
Firearm and Explosives Background Checks
Involving Ter ror ist Watchlist Records
(Mar. 7, 2016)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

1
Petitioner Khalid M. Turaani respectfully petitions for
a writ of certiorari to review the judgment of the United
States Court of Appeals for the Sixth Circuit in this case.
OPINIONS BELOW
The Sixth Circuit’s opinion is reported at Turaani v.
Wray, 988 F.3d 313 (6th Cir. 2021). Pet. App. 1a-8a. The
district court’s opinion is reported at Turaani v. Wray,
440 F. Supp. 3d 733 (E.D. Mich. 2020). Pet. App. 9a-21a.
The prior district court opinion is reported at Turaani
v. Sessions, 316 F. Supp. 3d 998 (E.D. Mich. 2018). Pet.
App. 22a-49a.
JURISDICTION
The Sixth Circuit Court of Appeals entered its
judgment on February 18, 2021. Per this Court’s Order on
March 19, 2020 extending the deadline to petition for a writ
of certiorari to 150 days from the date of the lower court
judgment, Petitioner timely filed this Petition on July 16,
2021, within 150 days of that judgment. The jurisdiction
of this Court is proper under 18 U.S.C. § 1254(1).
PERTINENT PROVISIONS
CONSTITUTIONAL PROVISION
Article III, Section 2 provides in relevant part:
The judicial power shall extend to all cases, in
law and equity, arising under this Constitution,
the laws of the United States, and treaties
made, or which shall be made, under their

2
authority;--to all cases affecting ambassadors,
other public ministers and consuls;--to all cases
of admiralty and maritime jurisdiction;--to
controversies to which the United States shall
be a party . . . .
U.S. Const. art. III, § 2.
STATUTORY PROVISIONS
The Privacy Act of 1974, 5 U.S.C. § 552a(g)(1) provides
in relevant part:
Civil Remedies. Whenever any agency
***
(D) fails to comply with any other provision
of this section, or any rule promulgated
thereunder, in such a way as to have an adverse
effect on an individual,
the individual may bring a civil action
against the agency, and the district
courts of the United States shall have
jurisdiction in the matters under the
provisions of this subsection.
5 U.S.C. § 552a(g)(1).
Title 28, Section 25.8 of the Code of Federal
Regulations, The National Instant Criminal Background
Check System, provides in relevant part:

3
System safeguards.
(g) The following precautions will be taken to
help ensure the security and privacy of NICS
information when FFLs contact the NICS
Operations Center:
***
The NICS Representative will only
provide a response of “Proceed”
or “Delayed” (with regard to the
prospective firearms transfer), and will
not provide the details of any record
information about the transferee. In
cases where potentially disqualifying
information is found in response to an
FFL query, the NICS Representative
will provide a “Delayed” response
to the FFL. Follow-up “Proceed” or
“Denied” responses will be provided
by the NICS Operations Center
during its regular business hours.
28 C.F.R. § 25.8(g)(2).
INTRODUCTION
This case turns on an individual’s fundamental right to
privacy free from government interference and unlawful
disclosures, as the Privacy Act protects. Petitioner Khalid
Turaani is a law-abiding U.S. citizen, yet government

4
agents have repeatedly made improper disclosures to
third parties that he is under federal investigation, and
that the government “doesn’t like the company he keeps,”
in violation of the Privacy Act. These violations interfere
with his lawful exercise of his constitutional rights and
harm his reputation in the community.
Mr. Turaani attempted to exercise his constitutional
right to purchase a firearm, in both 2017 and 2018. Each
time, his purchase attempt resulted in a three- day delay
instruction. During those three days in 2017, an FBI agent
called the seller’s place of business and informed the seller
that Mr. Turaani was the subject of a federal investigation.
That seller then refused to sell Mr. Turaani the firearm,
specifically stating that he was not going to sell a gun to
someone after an FBI agent called and said the person is
under investigation. During the three-day window in 2018,
an FBI agent approached the second seller at the seller’s
home, and volunteered that “we don’t like the company he
[Mr. Turaani] keeps.” Unsurprisingly, the second seller
also chose not to sell a firearm to Mr. Turaani, despite his
undisputed qualifications to purchase one.
Mr. Turaani brought suit after the first incident,
alleging infringements of his Second Amendment rights.
The Honorable Gershwin A. Drain dismissed those
claims but noted that Mr. “Turaani is correct that the
FBI agent violated 28 C.F.R. § 25.8(g)(2) by disclosing
that Turaani was the target of an FBI investigation.”1
After the second incident, Mr. Turaani brought this action
for violations of the Privacy Act. The district court and
1. Turaani v. Sessions, 316 F. Supp. 3d 998, 1010 (E.D. Mich.
2018). Pet. App. 37a- 38a.

5
Sixth Circuit both held that Mr. Turaani did not meet the
standard traceability requirements to establish standing,
applying the same test Judge Gershwin Drain had to
his Second Amendment claim, without discussion of the
specific requirements under the Privacy Act itself. The
lowers courts’ rulings grant the government a free pass
to disseminate a person’s confidential information to third
parties with no consequences, even when those disclosures
infringe on a person’s constitutional rights. The lower
courts’ holdings disregard the stated protections afforded
to individuals by an Act of Congress, and provide no
boundaries on governmental disclosure of private and
unsubstantiated claims made by federal officials.
STATEMENT OF THE CASE
I.

Improper Disclosure Under the Privacy Act

Congress passed the Privacy Act of 1974 to “protect
the privacy of individuals identified in information systems
maintained by Federal agencies.” Doe v. Chao, 540 U.S.
614, 618 (2004); see also 5 U.S.C. § 552a(e)(10). Under
the Act, agencies must establish safeguards to protect
from disclosure of records that “could result in substantial
harm, embarrassment, inconvenience, or unfairness to
any individual on whom information is maintained.” Fed.
Aviation Admin. v. Cooper, 566 U.S. 284, 294- 95 (2012).
The Act not only “gives agencies detailed instructions for
managing their records[, but also] provides for various
sorts of civil relief to individuals aggrieved by failures on
the Government’s part to comply with the requirements.”
Chao, 540 U.S. at 618.

6
Subsection (g)(1)(D) is the “catch-all” provision of
the Privacy Act, which provides a cause of action when
an agency fails to comply “in such a way as to have an
adverse effect on the individual.” 5 U.S.C. § 552a(g)(1)
(D). To maintain a suit for improper disclosure under
this catch-all provision, a plaintiff must demonstrate (1)
agency disclosure; (2) of a “record” contained in a “system
of records”; (3) that hadan “adverse effect” on the plaintiff;
and that it (4) was “willful or intentional.” Quinn v. Stone,
978 F.2d 126, 131 (3d Cir. 1992) (citing § 522a(g)(1)(D));
Chao, 540 U.S. at 624- 25 (explaining that “adverse effect”
is “a term of art identifying a potential plaintiff who
satisfies the injury-in-fact and causation requirements of
Article III standing”).
II. NICS Background Checks and the Stated Limits
To facilitate the background checks needed for
individuals to purchase firearms, the FBI manages the
National Instant Criminal Background Check System
(“NICS”) and the NICS Index. 18 U.S.C. § 922(t)(1); 28
C.F.R. § 25.3. The NICS Index “contain[s] information
provided by Federal and state agencies about persons
prohibited under Federal law from receiving or possessing
a firearm.” 28 C.F.R. § 25.2.
In response to a background check, the government
may only issue dealers one of the three following directives:
“proceed,” “denied,” or “delayed.” Id. § 25.6(c)(iv). It may
not disclose the details of a prospective buyer’s record
or indicate why NICS issued its directive. Id. §§ 25.6(d),
25.8(g)(2) (prohibiting NICS from “provid[ing] the details
of any record information about the transferee”). When
a check results in a “delayed” directive, the sale may not

7
proceed for three business days. If NICS makes no final
determination regarding the prospective purchaser’s
eligibility to purchase a firearm during that three days,
the status automatically defaults to “proceed.” 18 U.S.C.
§ 922(t)(1)(B)(ii). The dealer may then proceed with the
sale. Id.
NICS began utilizing government watchlist records in
2004.2 Since then, all NICS searches with potential or valid
matches to government watchlist records automatically
receive a “delayed” directive, to give NICS additional
time to research whether the prospective buyer should
be prohibited from purchasing a firearm under § 922(g).
Inclusion on a government watchlist is not one of the
disqualifying factors under § 922(g), or any federal law. 3 Id.
2. In 2003, the U.S. government created the Terrorist
Screening Database, which contains identifying information of
persons designated by one or more agencies as known or suspected
terrorists, or as having affiliations with any persons designated by
one or more agencies as known or suspected terrorists. Overview
of the U.S. Government’s Watchlisting Process and Procedures
as of January 2018 at 3-4. According to the Terrorist Screening
Center, nomination for inclusion in the watchlist must meet only
the very vague and subjective standard of “an individual who is
reasonably suspected to be, or have been, engaged in conduct
constituting, in preparation for, in aid of, or related to terrorism
and terrorist activities based on articulable and reasonable
suspicion.” Aff. of Christopher Piehota, Mohamed v. Holder, Case
No. 1:11-cv-0050, Dkt. No. 22-1 at 6 n.5 (E.D. Va. June 3, 2011). This
standard does not require probable cause, reasonable suspicion
or any criminal convictions. Id.
3. U.S. GOV’T ACCOUNTABILITY OFF., GAO-10-703T,
Terrorist Watchlist Screening: FBI Has Enhanced its Use of
Information from Firearm and Explosives Background Checks
to Support Counterterrorism Efforts at 1 (May 5, 2010); see also

8
As with all “delayed” directives, if NICS makes no further
determination about a person who may be on a government
watchlist, the status automatically rolls to “proceed.” Id.
III. The Government Improperly Disclosed Confidential
Information to Third Parties Regarding Mr.
Turaani
Mr. Turaani is a United States citizen of Palestinian
national origin. Pet. App. 25a, 45a. He has no criminal
convictions, history of mental illness, or otherwise
disqualifying criteria that would prevent him from
purchasing a firearm.4 He is a prominent figure in his
community and abroad, and involved in several nonprofit
organizations that assist the Palestinian American and
Muslim communities. 5

U.S. GOV’T ACCOUNTABILITY OFF., Update on Firearm and
Explosives Background Checks Involving Terrorist Watchlist
Records at 1 (Mar. 7, 2016) (“Under federal law, there is no basis
to automatically prohibit a person from possessing firearms or
explosives because they appear on the terrorist watchlist”). In June
2016, the U.S. Senate voted down two proposed gun control measures
seeking to limit or ban the sale of firearms to persons on the terrorist
watchlist. See Shield Act, S. Amdt. 4749, 114th Con. (2016); S. Amdt.
4720, 114th Cong. (2016); see also 162 CONG. REC. 98, S4346 (daily
ed. June 20, 2016) (statement of Sen. Chuck Grassley) (“If we actually
had a list that contained only actual terrorists, I would gladly support
[the gun measure]. What we really have are these flawed watch lists
that contain errors and are at the same time both under- and overinclusive”).

4. Pl.’s Original Compl. ¶¶ 17-27, ECF No. 1.
5. Id. at ¶ 37.

9
In June 2017, Mr. Turaani attempted to purchase
a firearm from a seller in his community. Id. at 25a.
Many individuals in Mr. Turaani’s community regularly
visit this same seller, including several with whom Mr.
Turaani does business.6 When Mr. Turaani attempted
his 2017 purchase, the NICS background check returned
a “delayed” response. Id. at 26a-27a. An individual then
immediately called the seller, while Mr. Turaani was still
at the counter, and identified himself as an FBI agent. Id.
The individual on the phone informed the seller that Mr.
Turaani was “under active government investigation”
and not to sell him the firearm at that time.7 Despite the
NICS status automatically defaulting to “proceed” after
three days, the seller informed Mr. Turaani that he was
not comfortable making any sales to Mr. Turaani because
an FBI agent had told him Mr. Turaani was under federal
investigation. Id. at 27a. Mr. Turaani has returned to that
seller’s place of business for target practice, and has seen
that the seller attached a large note in black marker to
Mr. Turaani’s paperwork on file which instructs any store
clerk coming into contact with Mr. Turaani not to sell him
a firearm under any circumstance. 8
In August 2018, Mr. Turaani again attempted to
purchase a firearm from a different local firearms seller.
Id. at 2a. As before, the NICS background check produced
a “delayed” response. Id. The seller advised Mr. Turaani to
contact him again after the three-day period, specifically
stating he would sell Mr. Turaani the firearm, since the
6. Id. at ¶ 71.
7. Id. at ¶ 64.
8. Id. at ¶ 70.

10
delayed notification is something the seller had seen
before. Id.
When Mr. Turaani followed up at the end of the week,
however, the seller informed him that FBI agent Jayson
Chambers showed up at the seller’s place of business (which
was also the seller’s residence) a day after the attempted
purchase. Id. at 3a. The FBI agent told the seller that the
FBI “does not like the company that [Mr. Turaani] keeps.”
Id. at 2a. The agent also showed the seller a photograph
of Mr. Turaani and another individual who appeared
to be of Middle Eastern descent. Id. The agent left his
contact information and asked the seller to pass it along
to Mr. Turaani. Id. at 11a. The agent’s communications
to the firearm seller exceeded the permissible scope of
disclosures under the relevant regulations. 28 C.F.R.
§§ 25.6(d), 25.8(g)(2). Because of the agent’s disclosures,
the seller refused to sell Mr. Turaani a firearm, stating
that he was no longer comfortable doing so after the agent’s
visit and statements about Mr. Turaani. Pet. App. 3a.
The government’s improper disclosures damaged Mr.
Turaani’s Second Amendment right to bear arms, his
privacy interests, his reputation and chosen employment,
and caused him emotional distress.9
IV. The District Court Dismissed Mr. Turaani’s Suit
Without Considering the Specific Claims Raised
Here
On June 13, 2019, Mr. Turaani filed this lawsuit,
alleging that Respondents Wray and Kable violated the
9. See generally id.

11
Privacy Act; the Administrative Procedure Act, 5 U.S.C.
§ 706(2)(A); and Mr. Turaani’s liberty interest in his
reputation under the stigma- plus doctrine. Pet. App. 9a.
Mr. Turaani further alleged that Respondent Chambers
violated 42 U.S.C. § 1981. Id. In his Complaint, Mr.
Turaani sought injunctive and declaratory relief, actual
damages, and the $1,000 statutory award.10 Respondents
moved to dismiss all claims under Rule 12(b)(1) for lack
of standing and Rule 12(b)(6) for failure to state a claim.
Id. at 10a. Respondents’ standing argument relied on
the assertion that Mr. Turaani failed to meet the fairlytraceable requirement because his injury was caused
by the independent actions of a third party, namely the
firearm seller.
The traceability element “looks to whether the
defendant’s actions have a ‘causal connection’ to the
plaintiff’s injury.” Id. at 4a (citing Lujan v. Defs. of Wildlife,
504 U.S. 555, 560 (1992)). Where a plaintiff’s injury is
indirectly caused by a third party, the defendant’s actions
must have “had a ‘determinative or coercive effect’ upon
the third party” to satisfy the traceability requirement.
Id. (quoting Bennett v. Spear, 520 U.S. 154, 169 (1997)).
The district court granted the motion to dismiss all
claims on the grounds of lack of standing, concluding that
Mr. Turaani failed to establish traceability because he
did not allege a “determinative or coercive” government
action inhibiting his ability to purchase a firearm. Id. at
20a. In its ruling, the district court did not undertake
an individualized standing analysis for each claim. And
it did not consider the “adverse effects” Mr. Turaani
10. See generally Pl.’s Original Compl., ECF No. 1.

12
alleged under the Privacy Act, including violations of his
Second Amendment rights, invasion of privacy, harm to
his reputation and chosen employment, and emotional
distress.11
V. The Sixth Circuit Affirmed the District Court,
Also Ignoring the Specific Nature of Privacy Act
Disclosure Claims
The Sixth Circuit affirmed the dismissal, also holding
that Mr. Turaani did not meet the second element of
standing—traceability. Pet. App. 7a-8a. According to
the circuit court, Mr. Turaani’s injuries “result[ed] from
[a] third party’s voluntary and independent actions” that
were not “cajole[d], coerce[d], [or] command[ed]” by the
government defendants. Id. at 6a (quoting Crawford v.
U.S. Dep’t of Treasury, 868 F.3d 438, 457 (6th Cir. 2017)).
The Sixth Circuit purportedly distinguished this
case from Parsons v. U.S. Department of Justice, where
the DOJ labeled the fans of a certain musical group as a
“gang,” causing local and state law enforcement to harass
them. 801 F.3d 701, 714 (6th Cir. 2015); Pet. App. at 6a-7a.
The plaintiffs in Parsons met the traceability element
“because of the cooperative relationship between local
and [federal] law enforcement” that may cause local law
enforcement to “feel compelled to follow the lead of federal
law enforcement and take action pursuant to information
provided by the Department of Justice.” Id. (quoting
Vapor Tech. Ass’n v. U.S. Food & Drug Admin., 977 F.3d
496, 502 (6th Cir. 2020) (per curiam)). According to the
11. The district court concluded that Mr. Turaani sufficiently
alleged an injury in fact. Pet. App. 13a.

13
court, “the tie between local and federal law enforcement
is closer than . . . the relationship between independent
firearms dealers and FBI agents.” Id. at 7a. This
conclusion ignores the direct violation of the Privacy Act
as pled by Mr. Turaani in this lawsuit. The Sixth Circuit’s
conclusion also ignores a myriad of federal laws relating
to firearm sales and the federally established connection
between sellers and the FBI through NICS background
checks and directives. This conclusion further ignores
the practical chilling effect on any seller of an FBI agent
calling or appearing, and making statements that Mr.
Turaani was under investigation or that the FBI “[doesn’t]
like the company he keeps.” And, the reasoning ignores
the additional matters raised by Mr. Turaani, including
his reputation in the community and right to work in
his chosen profession in his community unhindered by
government interference.
Like the district court, the Sixth Circuit did
not evaluate whether Mr. Turaani’s alleged injuries
constituted “adverse effects” to meet the traceability
requirement for an improper disclosure claim under the
catch-all provision unique to the Privacy Act, the statute
under which he brought his claims in this lawsuit. This
petition follows.
REASONS FOR GRANTING THE PETITION
In taking an overly narrow view of Article III standing,
the lower courts departed from the usual course of judicial
proceedings and undermined the Privacy Act’s remedy for
improper government disclosures. To demonstrate Article
III standing at the pleadings stage, plaintiffs must allege
(1) an injury in fact that is (a) concrete and particularized

14
and (b) actual or imminent; (2) a causal connection between
the injury and the conduct complained of, meaning the
injury is “fairly traceable” to the government’s action; and
(3) the injury can be redressed by a favorable decision.12
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992); see
also Bennett v. Spear, 520 U.S. 154, 169 (1997) (holding
that the plaintiff had standing to challenge an agency
environmental opinion where the opinion “play[ed] a
central role in [another] agency’s decisionmaking”). In
the context of Privacy Act claims, this Court recognizes
that the “adverse effect” element “acts as a term of art
identifying a potential plaintiff who satisfies the injury-infact and causation requirements of Article III standing.”
Chao, 540 U.S. at 624-25. The unique nature of Privacy
Act improper disclosure claims demands that courts apply
the adverse effects analysis to determine standing and
permit plaintiffs to “open the courthouse door.” Chao,
540 U.S. at 625.
The Sixth Circuit did not consider the adverse effects
analysis to determine standing. Nor did it recognize that
the very purpose of improper disclosure claims under
the Privacy Act is to prevent the government from
disseminating confidential information to third parties,
because the dissemination itself causes adverse effects
and actual damages. Holding that a foreseeable action of
third parties in response to the government’s disclosure
breaks the chain of causation renders the Privacy Act’s
12. This Court in Lujan noted that “at the pleading stage,
general factual allegations of injury resulting from the defendant’s
conduct may suffice, for on a motion to dismiss we presume that
general allegations embrace those specific facts that are necessary
to support the claim.” 504 U.S. at 561 (internal quotation marks
omitted).

15
protection against disclosures worthless. This cannot be
what Congress intended.
I.

A Circuit Split Exists as to Whether Adverse Effects
Determine Standing in Privacy Act Disclosure
Claims

The Sixth Circuit’s ruling deepens an existing circuit
split as to whether a plaintiff’s allegations of “adverse
effects” under the catch-all provision of the Privacy Act
for improper disclosure claims meet the traceability
element of standing. This Court’s holding in Doe v. Chao
provides guidance. In Chao, the government unlawfully
disclosed the plaintiff’s social security number after he
filed for workers’ compensation benefits. 540 U.S. at 61617. The primary question for this Court was whether
plaintiffs must prove actual damages to qualify for the
Privacy Act’s statutory award of $1,000. Id. at 616. This
Court answered yes, holding that a plaintiff must allege
more than “merely [] an intentional or willful violation of
the Act providing some adverse effect.” Id. at 626-27. To
qualify for the $1,000 award, the plaintiff must suffer
actual damages. Id. at 627. In parsing the Act’s language,
the Court further explained that its interpretation did not
deprive the language recognizing a civil
action by an adversely affected person of
any independent effect, for it may readily be
understood as having a limited but specific
function: the reference in § 552a(g)(1)(D) to
“adverse effect” acts as a term of art identifying
a potential plaintiff who satisfies the injury-infact and causation requirements of Article III
standing, and who may consequently bring a

16
civil action without suffering dismissal for want
of standing to sue.
Id. at 624-25 (internal citation omitted). Chao’s explanation
of “adverse effect” as a term of art identifying standing
cites to and comports with this Court’s prior holding in
Director, Office of Workers’ Compensation v. Newport
News Shipbuilding & Dry Dock Co., as well as several
statutes using that same language to describe an
“adversely affected” party as one entitled to judicial
review. 514 U.S. 122, 126 (1995) (“The phrase ‘person
adversely affected or aggrieved’ is a term of art used in
many statutes to designate those who have standing to
challenge or appeal an agency decision, within the agency
or before the courts”). Therefore, under this Court’s
precedent, “an individual subjected to an adverse effect has
injury enough to open the courthouse door” and therefore
has standing to sue under the Privacy Act. Chao,540 U.S.
at 625.
Four circuits—the First, Third, Fifth, and Eleventh—
follow the same reasoning as this Court articulated in
Chao, and read the Privacy Act to include a standing
requirement based on the plaintiff’s alleged adverse
effects. The Sixth Circuit, along with the Fourth Circuit,
ignores the statutory text and this Court’s precedent,
creating a conflict with the other circuits.13
13. The remaining circuits (the Second, Seventh, Eighth,
Ninth, Tenth and D.C. Circuits) have taken no position on this
precise issue (but see Tozzi v. Dep’t of Health & Hum. Servs.,
271 F.3d 301, 309 (D.C. Cir. 2001) (requiring a showing only that
government action was a “substantial factor” motivating third
party action in a case brought under the APA challenging HHS’s
designation of a product as a “carcinogen”) and Mendia v. Garcia,

17
A.

Four circuits apply the reasoning in Chao and
consider adverse effects to decide whether the
plaintiff has standing

Applying the reasoning in Chao and the statutory
interpretation of “adverse effects” in other statutes, four
circuits expressly consider the plaintiff’s alleged adverse
effects to determine Article III standing.
In Quinn v. Stone, the Third Circuit considered
whether there were disputed issues of fact regarding
the adverse effect element. 978 F.2d at 135-36. While
Quinn actually preceded Chao, it applied the same logic
to find that the plaintiffs had standing. The husband-wife
plaintiffs in Quinn alleged that the Letterkenny Army
Depot improperly disclosed their private information
while investigating whether the couple had illegally
obtained two sets of hunting licenses. Id. at 130-31. The
plaintiffs alleged adverse effects in the form of damage
to their reputations and occupational losses, emotional
anguish, and stress-related health issues resulting
from the government’s disclosure. Id. at 131. The court
explained that “the adverse effect requirement of (g)(1)
(D) is, in effect, a standing requirement” and held that
the plaintiffs’ “allegations [were] sufficient to satisfy the
Act’s adverse effect standing requirement.” Id. at 135-36
(noting that emotional distress and embarrassment can
be sufficient to confer standing); see also Campeau v. Soc.
Sec. Admin., 575 F. App’x 35, 38 (3d Cir. 2014) (following
768 F.3d 1009, 1013 (9th Cir. 2014) (“To plausibly allege that the
injury was not the result of the independent action of some third
party, the plaintiff must offer facts showing that the government’s
unlawful conduct is at least a substantial factor motivating the
third parties’ actions”)).

18
Chao but holding that the plaintiff’s voluntary decision to
travel to the agency headquarters to obtain records did
not constitute an adverse effect).
Three other circuits follow the rationale of Quinn and
Chao. In Speaker v. U.S. Department of Health & Human
Services Centers for Disease Control & Prevention, the
Eleventh Circuit considered whether a tuberculosis patient
had standing to bring improper disclosure claims under
the Privacy Act. 623 F.3d 1371, 1382 (11th Cir. 2010). In
that case, the plaintiff alleged that CDC officials disclosed
his illness and quarantine status to law enforcement,
news media, and the general public without his consent.
Id. at 1375. The court held that the plaintiff alleged
multiple injuries to satisfy the adverse effect standing
requirement, including reputational damage, emotional
distress, and strain on his marriage. Id. at 1382-83 (citing
Chao, 540 U.S. at 624). And the First Circuit, following
Quinn, concluded that in addition to alleging the willful
or intentional agency disclosure of a record contained
“in a system of records,” a plaintiff asserting improper
disclosure under the Privacy Act must show an “adverse
effect.” Orekoya v. Mooney 330 F.3d 1, 5 (1st Cir. 2003),
abrogated on other grounds by Chao, 540 U.S. at 618.
Further, the adverse effect “requirement contains two
components: (i) an adverse effect standing component (ii)
a causal nexus between the disclosure and the adverse
effect.” Id. (citing Quinn, 978 F.2d at 131). The Fifth
Circuit in Sweeney v. Chertoff applied the same logic,
though it came to a different conclusion based on the
facts before it. 178 F. App’x 354, 357-58 (5th Cir. 2006)
(holding that the plaintiff’s lost pay resulted from his own
insubordination and was therefore not fairly traceable to
the government’s violation of the Privacy Act).

19
B. The Sixth Circuit’s decision below and the
Fourth Circuit do not consider the adverse
effects in deciding standing
The Sixth Circuit did not consider Mr. Turaani’s
alleged adverse effects as part of its standing analysis.
Instead, it jumped to the generic standing analysis and
ignored the adverse effects altogether.14
The decision below renders the adverse effect element
of a Privacy Act claim for improper disclosure irrelevant,
despite this Court’s and other circuits’ recognition that
a plaintiff alleging “adverse effects” arising from the
government’s disclosure satisfies the injury-in-fact and
causation requirements for standing. See, e.g., Chao, 540
U.S. at 624; Quinn, 978 F.2d at 135 (noting that “the
adverse effect requirement of (g)(1)(D) is, in effect, a
standing requirement”).
Under the Sixth Circuit’s reasoning, a plaintiff can
only bring an improper disclosure claim if the government
not only discloses confidential information to a third
party which causes an injury, but also “cajoles, coerces,
or commands” the third party to injure the plaintiff. Pet.
App. 5a. The Sixth Circuit’s holding effectively eliminates
the “disclosure” element and replaces it with a “command”
element, which is not a part of the catch-all provision nor
Article III standing precedent.
14. See Davis v. Fed. Election Comm’n, 554 U.S. 724, 734
(2008) (explaining that “a plaintiff must demonstrate standing
for each claim he seeks to press and for each form of relief that is
sought”) (quoting DaimlerChrysler Corp. v. Cuno, 547 U.S. 332,
352 (2006)).

20
The Sixth Circuit is not alone. In Beck v. McDonald,
the Fourth Circuit expressly rejected Chao’s explanation
that “adverse effect” is a term of art identifying a plaintiff
who meets the injury in fact and traceability elements. 848
F.3d 262, 273 (4th Cir. 2017). The alleged disclosure in Beck
arose out of a data breach of personal medical information.
Id. at 266-67. In addition to arguing that the increased
risk of identity theft and costs to prevent identity theft
established Article III standing, the plaintiffs alleged
“emotional upset” and “fear of identity theft” as adverse
effects to demonstrate standing under Chao. Id. at 27273. The Fourth Circuit rejected the plaintiffs’ allegations:
We decline to interpret dicta in Chao discussing
the plaintiff’s “conclusory allegations” that he
was “torn . . . all to pieces” by the unauthorized
disclosure of his social security number as
support forthe proposition that bare assertions
of emotional injury are sufficient to confer
Article III standing.
Id. at 266-67 (holding that the risk of future identity
theft and associated costs did not confer standing). In so
holding, the Fourth Circuit effectively rejected this Court’s
conclusion in Chao that “an individual subjected to an
adverse effect has injury enough to open the courthouse
door.” Chao, 540 U.S. at 625.
Both the Fourth and Sixth Circuit holdings strip the
Privacy Act’s adverse effects language of any significance
to decide standing for improper disclosure claims. Because
these rulings comport with neither this Court’s precedent
nor the purpose of the Act and conflict with rulings in
multiple other circuit courts, certiorari is appropriate.

21
II. The Sixth Circuit Applied a Narrow View of
Traceability Not Consistent with the Statute or
This Court’s Precedent
The Si xth Circuit’s nar row interpretation of
traceability leaves improper disclosure plaintiffs without a
remedy any time their injuries arises out of the foreseeable
reaction by a third party to disclosures by government
agents with the appearance of authority. While discussing
traceability, Lujan v. Defenders of Wildlife explained that
the plaintiff’s alleged injury must not be “the result of the
independent action of some third party not before the
court.” 504 U.S. at 561. But this Court further clarified
traceability based on third-party action in Bennett v.
Spear, where a Fish and Wildlife Service (“FWS”) opinion
serving an “advisory function” had a “powerful coercive
effect on the action agency” at issue. 520 U.S. 154, 169
(1997). This Court recognized that “[t]he action agency is
technically free to disregard [FWS’s opinion] and proceed
with its proposed action, but it does so at its own peril,”
and held that the plaintiffs had standing to challenge the
opinion under the Endangered Species Act and the APA.
Id. at 170 (finding standing where plaintiff irrigation
districts alleged that water restrictions recommended
by the FWS opinion would “adversely affect” them).
Bennett expressly stated that causation “doesn’t require
a showing . . . that the defendant’s actions are the very
last step in the chain of causation” when the defendant’s
actions “produce [a] determinative or coercive effect upon
the action of someone else.” Id. at 169. The words used in
Bennett do not require that the government action be a
command or directive to a third party, only that it produce
a determinative or coercive effect on a third party. Id.

22
Mr. Turaani alleged that after FBI agents twice
improperly disclosed information suggesting Mr. Turaani
is on a government watchlist or has committed illegal acts,
the sellers felt uncomfortable proceeding with the sales.15
Both sellers acknowledged their previous intent to sell
Mr. Turaani the firearms, and could have done so based
on the NICS “delay” automatically reverting to “open”
status. Pet. App. 2a-3a, 26a-27a. Similar to Bennett, the
sellers were “technically free to disregard” the FBI agents’
disclosures and sell the firearms to someone whom the
FBI suggested has terrorist ties. 520 U.S. at 170. But the
agents’ conduct produced a coercive effect, and interfered
with the sales.16
The lower courts erroneously suggested that Bennett
mandates direct causation or that the defendant must
command the third party. Pet. App. 4a-5a, 16a- 17a. The
Sixth Circuit distorted Bennett’s reasoning to “require[]
that the government cajole, coerce, command” to establish
traceability in a case involving third-party action. Id. at
5a (citing Crawford v. U.S. Dep’t of Treasury, 868 F.3d
438, 457 (6th Cir. 2017) (concluding that that the plaintiff’s
harms did not arise out of a third party “acting under
the command of [the defendants], but rather from [its]
voluntary choice”) (emphasis in original)). Referring to
the FBI agents’ communications to the firearm sellers,
15. Pl.’s Original Compl., ¶¶ 52, 68-69, ECF No. 1.
16. In Coker v. Barr, a court within the Tenth Circuit explained
that where the plaintiff alleged that he was labeled as someone
“known or suspected to be linked to terrorism” in a defamation
action, “it is hard to imagine a greater stigma than being associated
with terrorism in our post-9/11 world.” No. 19-cv-02486-RBJ, 2020
U.S. Dist. LEXIS 255249, at *23 (D. Colo. Sept. 15, 2020).

23
the Sixth Circuit opined that “[c]ontact does not equal
coercion” and “passing along information, and ambiguous
information at that, is a distant cry from forcing action.”
Id. at 4a. These conclusions disregard this Court’s holdings
in Bennett, circuit courts’ interpretations of Bennett, and
Congress’ articulated intent in the context of Privacy Act
improper disclosure claims.
Contrary to the decision below, the Third Circuit in Pitt
News v. Fisher applied Bennett and found that a student
newspaper had standing to challenge a law prohibiting
newspapers from running advertisements about alcoholic
beverages.215 F.3d 354, 358 (3d Cir. 2000). The government
argued that the newspaper’s injury was not fairly traceable
to the enforcement of the act “because the harm felt
by the newspaper results from the independent acts of
third parties,” when advertisers decided to cancel their
contracts. Id. at 360. The court rejected this argument,
holding that “but for” the law, advertisers would not have
chosen to stop paying for advertisements. Id. at 360-61.
The Fifth Circuit in Brackeen v. Haaland also recently
reinforced Bennett’s reasoning, holding that plaintiffs
demonstrated traceability when the government’s rule
regarding custody of American Indian children “induc[ed]
state officials to apply [the federal Indian law] through the
leverage of child welfare funds.” 994 F.3d 249, 372 (5th
Cir. 2021); see also Tex. Ass’n of Mfrs. v. U.S. Consumer
Prod. Safety Comm’n, 989 F.3d 368, 377-78 (5th Cir.
2021) (finding standing where toy manufacturers alleged
government’s prohibition on phthalates was a “substantial
factor” in causing their lost sales); K.P. v. LeBlanc, 627
F.3d 115, 123 (5th Cir. 2010) (holding that traceability only
requires that the defendants “significantly contributed”

24
to the plaintiff’s injury). Brackeen did not require direct
causation, nor did it require “cajoling” or “commanding”
as the Sixth Circuit demanded.
In Tozzi v. Dep’t of Health & Hum. Servs., the D.C.
Circuit considered whether the plaintiff had standing
to challenge the government labeling its product a
“carcinogen.” 271 F.3d 301, 309 (D.C. Cir. 2001). The
court explained that “where, as here, the alleged injury
flows not directly from the challenged agency action, but
rather from independent actions of third parties, we have
required only a showing that ‘the agency action is at least
a substantial factor motivating the third parties’ actions.’”
Id. at 308 (quoting Cmty. for Creative Non-Violence v.
Pierce, 814 F.2d 663, 669 (D.C. Cir. 1987)). The D.C. Circuit
found the plaintiff met the traceability requirement
because the “inherently pejorative and damaging” label
exponentially increased the likelihood of harm, even
where the government did not command any third party
to do anything. Id. at 309. The Ninth Circuit also applied
the approach utilized in both Bennett and Tozzi. See, e.g.,
Skyline Wesleyan Church v. Cal.Dep’t of Managed Health
Care, 968 F.3d 738, 748 (9th Cir. 2020) (finding causation
based on government directive requiring insurers to
change their coverage, and plaintiff’s loss of the type of
coverage it wanted); Mendia v. Garcia, 768 F.3d 1009,
1013 (9th Cir. 2014) (finding that “[t]o plausibly allege
that the injury was not the result of the independent
action of some third party, the plaintiff must offer facts
showing that the government’s unlawful conduct is at
least a substantial factor motivating the third parties’
actions”) (internal citations and quotation marks omitted));
Stormans, Inc. v. Selecky, 586 F.3d 1109 (9th Cir. 2009)
(finding individual pharmacists had standing to challenge

25
state anti-discrimination rules based on the expectation
that the rule would result in employers terminating
pharmacists who objected to the rules).
The holding in Tozzi applies well to improper
disclosure claims, where a government agent’s disclosure
of confidential and often personal or pejorative information
may not technically command a third-party to take a
harmful action, but certainly serves as a “substantial
factor motivating” the action. See 271 F.3d at 308.
This occurred with Mr. Turaani, as he alleged that the
sellers informed him they would have sold Mr. Turaani
the firearms if the agents had not improperly disclosed
information.
The Sixth Circuit took Bennett’s “coercive effect”
holding to an improper extreme that shuts the courthouse
doors on any plaintiff who cannot allege a near- literal
command by the government to a third party. Pet. App. 4a6a; see also Crawford, 868 F.3d at 457 (affirming dismissal
because the plaintiff could not point to a “command”). That
is not what this Court held or intended in Bennett, nor
does this stringent test reflect the intent of Congress to
hold the government accountable for improper disclosures.
III. This Case Presents Important and Recurring
Questions Which Can Be Resolved by a Ruling from
This Court
Mr. Turaani’s situation highlights the severe
consequences of a narrow interpretation of traceability
in improper disclosure cases. Mr. Turaani alleges that
the government’s disclosure caused him not only harm
to his reputation, profession, and emotional distress,

26
but also a violation of his fundamental rights under the
Second Amendment. The government did not interfere
with a nebulous privacy interest; it infringed on a citizen’s
constitutional rights. That infringement, coupled with
the important purpose of the Privacy Act’s improper
disclosure remedy, necessitates clarity on whether
plaintiffs may seek relief for government disclosures to
third parties.
In passing the Privacy Act, Congress found that “the
opportunities for an individual to secure employment,
insurance, and credit, and his right to due process, and
other legal protections are endangered by the misuse
of certain information systems.” 5 U.S.C. § 552a note
(Congressional findings and statement of purpose). The
Act’s purpose includes (a) “permit[ting] an individual
to prevent records pertaining to him obtained by such
agencies for a particular purpose from being used or made
available for another purpose without his consent” and (b)
“subject[ing the government] to civil suit for any damages
which occur as a result of willful or intentional action
which violates any individual’s rights under this Act.” Id.
Congress’ stated purpose makes clear that it recognized a
person’s concern as tohow such governmental disclosures
can cause harm which reaches beyond the disclosure itself.
Id. As described by the U.S. Government Accountability
Office, the Privacy Act provides a basis to “safeguard the
privacy of individuals about whom information is shared
among government agencies and by those agencies with
the private sector.” Decision of Comptroller Gen. Walker,
U.S. GOV’T ACCOUNTABILITY OFF., Summary of
Recommendations – The 9/11 Commission Report, 2004
U.S. Comp. Gen. LEXIS 278, *17-18 (Sept. 9, 2004).

27
The Sixth Circuit’s ruling triggers important questions
given this Court’s holding in Chao, where this Court
concluded that a plaintiff cannot recover the Privacy Act’s
$1,000 statutory award for an improper disclosure without
actual damages and pecuniary losses. 540 U.S. at 618. The
plaintiff in Chao alleged that he was “‘greatly concerned and
worried’ about the disclosure of his Social Security number
and its potentially ‘devastating’ consequences.” Id. But the
plaintiff did not allege that the government disclosed the
information to any other agency or third party, nor did he
allege any actual damages arising out of the disclosure;
instead, the disclosure he complained of existed in a vacuum.
Id.; see also Cooper, 566 U.S. at 302- 03 (holding that mental
and emotional harm alone do not constitute “actual damages”
under the Privacy Act). The Chao holding limits Privacy Act
awards for improper disclosure to plaintiffs who can show
both adverse effects and actual damages. Both of these
requirements, along with the statutory history and stated
purpose of the Privacy Act, demonstrate that the Privacy
Act addresses dissemination of confidential information to
someone else.17 When that someone else is a third party,
the coercive effect produced by the government’s disclosure
provides plaintiffs with standing and access to the courthouse
doors even absent a direct command by the government
actor. Bennett, 520 U.S. at 170; Tozzi, 271 F.3d at 308. The
17. Both Chao and Cooper recognize the parallels between
the Privacy Act’s improper disclosure penalties and common-law
torts of libel and slander. Chao, 540 U.S. at 625; Cooper, 566 U.S.
at 296; see also TransUnion LLC v. Ramirez, 594 U.S. __ (2021)
(finding that standing exists for dissemination of credit reports
containing alerts identifying the plaintiffs as potential terrorists).
Those parallels extend beyond the damages provision, as reflected
in Congress’s findings and stated purpose of the Act. See 5 U.S.C.
§ 552a note (Congressional findings and statement of purpose).

28
Sixth Circuit’s ruling represents a departure from the usual
course of judicial proceedings sufficient to necessitate this
Court’s review. Stephen M. Shapiro, et al., Supreme Court
Practice § 4.15 (11th ed. 2019) (noting that the Court grants
certiorari to exercise its “supervisory power” in cases where
the lower court conflicts with its precedent and departed
from the accepted course of judicial proceedings) (citing
Valley Forge Christian Coll. v. Ams. United for Separation
of Church & State, 454 U.S. 464, 470 (1982) (“Because of
the unusually broad and novel view of standing to litigate
a substantive question in the federal courts adopted by the
Court of Appeals, we granted certiorari.”)).
Bennett’s test on standing reflects the longstanding
principle that “the Constitution’s protection is not limited
to direct interference with fundamental rights.” Healy
v. James, 408 U.S. 169, 183 (1972) (holding that college
president’s denial of recognition of a student organization
was a substantial burden on freedom of association). The
Privacy Act protects individuals from government actors
improperly disclosing private information that adversely
affects individuals’ “employment, insurance, and credit,
[] right to due process, and other legal protections.” 5
U.S.C. § 552a note (Congressional findings and statement
of purpose) (recognizing that “the right to privacy is
a personal and fundamental right protected by the
Constitution of the United States”). When courts fail to
effectuate these constitutional and statutory protections,
abuse by federal law enforcement officials remains
unchecked. See Bivens v. Six Unknown Named Agents
of Fed. Bureau of Narcotics, 403 U.S. 388, 394 (1971)18
18. The Sixth Circuit has held that the Privacy Act precludes
Bivens claims because the Act serves as a comprehensive scheme

29
(discussing, in the context of a Fourth Amendment claim,
the great capacity for harm from the “invocation of federal
power by a federal law enforcement official”); Amos v.
United States, 255 U.S. 313, 317 (1921) (explaining that
the plaintiff’s wife could not have waived the warrant
requirement due to the law enforcement official’s “implied
coercion”).
CONCLUSION
Privacy rights are paramount among protections
afforded United States citizens. Protection from unlawful
government interference in the exercise of an individual’s
rights ranks among the highest rights afforded to our
citizens, particularly when the rights the individual seeks
to exercise are themselves constitutionally protected.
The Privacy Act protects the rights of individuals from
improper disclosures by government actors, due largely
to the color of authority carried by these actors and the
coercive nature of these disclosures. The Sixth Circuit
unjustly narrowed the test articulated by this Court
for an individual to establish standing to bring a claim
under the Privacy Act for improper disclosure by a
government official, subjecting Petitioner and others
like him to an erroneously burdensome higher standard
of demonstrating that the government official both made
an improper disclosure and commanded or directed
a third party to act on it. This heightened standard
providing a meaningful remedy for improper government disclosures.
Downie v. City of Middleburg Heights, 301 F.3d 688, 696 (6th Cir.
2002) (concluding that “because the Privacy Act is a comprehensive
legislative scheme that provides a meaningful remedy for the kind
of wrong [plaintiff] alleges that he suffered, we should not imply a
Bivens remedy”).

30
conflicts with the plain language of the statute itself
and this Court’s precedent, as well as the holdings of
majority of the Circuits which have considered the issue.
Allowing the holdings of the lower courts in this matter
to stand subjects the constitutional rights of Petitioner
and others like him to subjective assessment by future
judges in a way intended neither by the Constitution nor
Congress. “A constitutional guarantee subject to future
judges’ assessments of its usefulness is no constitutional
guarantee at all.” Dist. of Columbia v. Heller, 554 U.S.
570, 634 (2008).
Petitioner Khalid M. Turaani therefore respectfully
requests that this Court issue a writ of certiorari to review
the judgment of the United States Court of Appeals for the
Sixth Circuit.
			Respectfully submitted,
Christina A. Jump
Counsel of Record
A llie J. Hallmark
A lyssa F. Morrison
Constitutional Law Center
for Muslims in A merica
100 North Central Expressway,
Suite 1010
Richardson, TX 75080
(972) 914-2507
cjump@clcma.org
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE SIXTH
CIRCUIT, FILED FEBRUARY 18, 2021
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 20-1343
KHALID M. TURAANI,
Plaintiff-Appellant,
v.
CHRISTOPHER WRAY, IN HIS OFFICIAL
CAPACITY AS DIRECTOR OF THE FEDERAL
BUREAU OF INVESTIGATION; CHARLES H.
KABLE, IV, IN HIS OFFICIAL CAPACITY AS
DIRECTOR OF THE TERRORIST SCREENING
CENTER; JASON CHAMBERS, IN HIS
INDIVIDUAL CAPACITY,
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of Michigan at Port Huron.
No. 3:19-cv-11768—Robert H. Cleland, District Judge.
Decided and Filed: February 18, 2021
Before: BOGGS, SUTTON,
and NALBANDIAN, Circuit Judges.

2a
Appendix A
OPINION
SUTTON, Circuit Judge. Khalid Turaani tried to buy
a firearm at a gun show. But after an FBI agent expressed
concerns about Turaani to the gun dealer, the purchase
fell through. Turaani sued. Instead of suing the dealer,
however, he filed the action against various officials at the
FBI, from the agent who approached the dealer to the
Director. The district court granted the government’s
motion to dismiss for lack of standing. Because Turaani’s
injury cannot be fairly traced to the government’s conduct,
we affirm.
In 2018, Turaani went to a gun show in Birch Run,
Michigan. He approached a dealer to buy a gun. When
the dealer ran Turaani’s name through the National
Instant Criminal Background Check System, he received
a “delay” response, R.1 at 10, requiring the dealer to
wait three days before completing the sale. See 28 C.F.R.
§ 25.6(c)(1)(iv)(B). The dealer told Turaani about the hold.
The next day, FBI agent Jason Chambers went to the
dealer’s house, which doubled as his place of business, to
speak to him about Turaani. Chambers wanted to see
what information Turaani had provided about himself
and explained that “we have a problem with the company”
Turaani “keeps.” R.1 at 11. He showed photographs
of Turaani with another person of apparent Middle
Eastern descent, whom the dealer did not recognize. And
Chambers left his contact information with the dealer.

3a
Appendix A
Turaani followed up with the dealer a few days later
to purchase the gun. The dealer explained that he had
received a visit from the FBI. While he “technically could
sell the gun” because the three-day delay had passed
without further prohibitions on the sale, the dealer told
Turaani that he was “no longer comfortable doing so.”
R.1 at 12.
Turaani sued. He brought claims under the Privacy
Act, the Administrative Procedure Act, the stigmaplus doctrine, and 42 U.S.C. § 1981, alleging that the
government infringed his rights. He sued the Director
of the FBI, agent Chambers, and Charles Kable, who
maintains the government’s Terrorist Screening Database,
all collectively referred to as the FBI. The government
moved to dismiss the lawsuit for lack of standing. See Fed.
R. Civ. P. 12(b)(1). The district court granted the motion.
It reasoned that Turaani’s response to the government’s
motion focused on his “right to obtain a weapon” and the
direct and indirect injuries that flowed from the dealer’s
decision not to sell him one. R.19 at 7. Because the dealer’s
decision not to sell the gun was an independent choice the
government did not require, the district court explained,
Turaani failed to show that his injury was traceable to
the FBI’s actions. This appeal ensued.
The U.S. Constitution limits the “judicial Power”
to resolving “Cases” and “Controversies.” U.S. Const.
art. III, § 2. To meet that requirement, a plaintiff must
show that he has “suffered an injury in fact,” the injury
is “traceable” to the defendant’s action, and a favorable
decision likely will redress the harm. Spokeo, Inc. v.

4a
Appendix A
Robins, 136 S. Ct. 1540, 1547, 194 L. Ed. 2d 635 (2016).
Each element is an “irreducible constitutional minimum.”
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560, 112 S. Ct.
2130, 119 L. Ed. 2d 351 (1992).
Turaani and the government spar over the second
element, traceability, which looks to whether the
defendant’s actions have a “causal connection” to the
plaintiff’s injury. Lujan, 504 U.S. at 560. Indirect harms
typically fail to meet this element, see Warth v. Seldin,
422 U.S. 490, 505, 95 S. Ct. 2197, 45 L. Ed. 2d 343 (1975),
because harms “result[ing] from the independent action
of some third party not before the court” are generally
not traceable to the defendant, Simon v. E. Ky. Welfare
Rights Org., 426 U.S. 26, 42, 96 S. Ct. 1917, 48 L. Ed. 2d
450 (1976). That means that, unless the defendant’s actions
had a “determinative or coercive effect” upon the third
party, the claimant’s quarrel is with the third party, not
the defendant. Bennett v. Spear, 520 U.S. 154, 169, 117 S.
Ct. 1154, 137 L. Ed. 2d 281 (1997); see also Crawford v.
U.S. Dep’t of Treasury, 868 F.3d 438, 457 (6th Cir. 2017).
Gauged by these considerations, Turaani’s injury
stems from the actions of the gun dealer, not the FBI.
Take stock of what the FBI did. Agent Chambers visited
the dealer to “speak with” him about Turaani. R.1 at 11.
That does not suffice. Contact does not equal coercion.
Chambers then asked to see the information Turaani
provided when he tried to purchase the gun. That is
not enough. Else, every law-enforcement inquiry could
generate a lawsuit premised on an inquiry. Chambers
then showed the dealer a photograph of Turaani with an

5a
Appendix A
unknown man of apparent Middle Eastern descent, adding
that he had concerns “with the company” Turaani “keeps.”
Id. That is not enough either. Passing along information,
and ambiguous information at that, is a distant cry
from forcing action. An indirect theory of traceability
requires that the government cajole, coerce, command.
See Crawford, 868 F.3d at 457. Venturing vague concerns
does none of the above.
Think of it this way. Would Turaani have a case
against a gun-control advocacy group if it had run
an advertisement inspiring the dealer to stop selling
firearms? It is hard to see how. Even if such an ad
campaign caused Turaani’s sale to fall through, his harm
would arise from the dealer’s “voluntary choice.” Id. What
of a court decision that increased the risks of liability for
gun dealers but did not prohibit gun sales? That court
decision might affect a dealer’s decision to sell a gun, but
the choice not to sell the gun would be traceable only to
the dealer’s voluntary action, not to the court’s decision,
which still permitted gun sales.
Courts should not “presume either to control or to
predict” the “unfettered choices made by independent
actors not before the courts.” ASARCO Inc. v. Kadish,
490 U.S. 605, 615, 109 S. Ct. 2037, 104 L. Ed. 2d 696
(1989). A third party’s “legitimate discretion” breaks the
chain of constitutional causation. Id.; see also Simon, 426
U.S. at 42-43. Agent Chambers left the dealer with that
discretion. He did not command or coerce; he explained
only the reason for the inquiry. Article III demands more.

6a
Appendix A
Turaani pushes back, claiming that the FBI’s actions
amounted to a sufficient cause of the dealer’s decision
not to sell the gun. But, in doing so, he never refutes the
applicability of Crawford. It says that “an injury that
results from the third party’s voluntary and independent
actions” does not establish traceability; the government
must do more, say by establishing a “command” of the
third party’s actions. Crawford, 868 F.3d at 457. Turaani
never asserts that Chambers commanded the gun dealer
not to go through with the sale. The dealer instead
exercised his discretion after speaking with Chambers.
Because Chambers did not compel his chosen course
of conduct, we are left only with the kind of attenuated
causal chain that fails to meet Article III’s requirements.
Turaani’s reliance on a “chain of contingencies,” in all its
rippling glory, creates “mere speculation,” not a traceable
harm. Clapper v. Amnesty Int’l USA, 568 U.S. 398, 410,
133 S. Ct. 1138, 185 L. Ed. 2d 264 (2013).
Parsons v. U.S. Department of Justice, 801 F.3d 701
(6th Cir. 2015), does not alter this conclusion. After the
Department of Justice labeled the fans of a musical group
a “gang,” local and state law enforcement began harassing
the fans, prompting a lawsuit by them against the federal
government. Id. at 706-09. In agreeing that Article III
causation existed for the claims, the court reasoned that
it is “possible to motivate harmful conduct without giving
a direct order to engage in such conduct.” Id. at 714. But
because of the cooperative relationship between local and
national law enforcement, local law enforcement “may feel
compelled to follow the lead of federal law enforcement
and take action pursuant to information provided” by the

7a
Appendix A
Department of Justice. Vapor Tech. Ass’n v. U.S. Food
& Drug Admin., 977 F.3d 496, 502 (6th Cir. 2020) (per
curiam). Just as the tie between local and federal law
enforcement is closer than the connection “between courts
and litigants,” id., so the same is true of the relationship
between independent firearms dealers and FBI agents.
No compulsion occurred here.
Turaani argues that other injuries, such as reputational
harm and violations of his privacy, suffice to show an
Article III injury because they can be traced to the
FBI’s actions. But the only injury Turaani targeted in his
response to the government’s motion to dismiss was his
inability to purchase a firearm. By failing to meaningfully
identify his other injuries to the district court, he forfeited
those arguments. Callahan v. Fed. Bureau of Prisons,
965 F.3d 520, 525 (6th Cir. 2020).
To the extent Turaani preserved arguments about
other injuries—say reputational harms flowing from the
FBI’s alleged violation of the Privacy Act—that does
not change things either. The key reputational harm he
identified was his inability to purchase a firearm, which
comes full circle back to the traceability problem already
established. And while Turaani asserted in his complaint
that his standing in the community suffered due to
Chambers’ comments, he offered no specifics supporting
that claim. Generalized allegations of reputational harm
are not enough without alleging “specific, concrete facts”
showing a “demonstrable” injury. Warth, 422 U.S. at 508;
see also Parsons, 801 F.3d at 711.

8a
Appendix A
While this lack of specificity and other forfeitures may
undermine today’s claim, they do not prohibit Turaani
from attempting to buy a gun again. If, at that point,
he runs into similar problems and wishes to concretely
complain about these other alleged injuries, nothing
would prohibit him from doing so—if he meets Article
III’s requirements. Turaani, for what it is worth, has not
been shy about protecting his rights. In 2017, he brought
an action against similar parties for similar conduct.
See Turaani v. Sessions, 316 F. Supp. 3d 998, 1004 (E.D.
Mich. 2018).
We affirm.

9a
APPENDIX B — Appendix
OPINIONBOF THE UNITED
STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF MICHIGAN, SOUTHERN DIVISION,
DATED FEBRUARY 20, 2020
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN,
SOUTHERN DIVISION
Case No. 19-11768
KHALID M. TURAANI,
Plaintiff,
v.
CHRISTOPHER A. WRAY, CHARLES H. KABLE, IV,
and JAYSON R. CHAMBERS,
Defendants.
OPINION AND ORDER GRANTING
DEFENDANTS’ MOTION TO DISMISS
Plaintiff Kahlid M. Turaani sues Defendants
Christopher A. Wray, Director of the Federal Bureau of
Investigation (“FBI”), Charles H. Kable, IV, Director of
the Terrorist Screening Center (“TSC”), and Jayson R.
Chambers, an FBI agent. (ECF No. 1, PageID.3-4, ¶¶ 5-7;
ECF No. 14, PageID.101.) Plaintiff asserts violations of
the Privacy Act, 5 U.S.C. § 552a(b), the Administrative
Procedure Act (“APA”), 5 U.S.C. § 706, procedural due
process, and 42 U.S.C. § 1981. (ECF No. 1, PageID.17-25,
¶¶ 81-123.) Defendants allegedly prevented Plaintiff from
purchasing a firearm by approaching the would-be seller
and disclosing confidential information about Plaintiff.

10a
Appendix B
Defendants move to dismiss the complaint for lack of
standing and for failure to state a claim. (ECF No. 14.)
Plaintiff has responded. (ECF No. 17.) The court finds
a hearing unnecessary. E.D. Mich. L.R. 7.1(f)(2). For
the reasons provided below, Defendants’ motion will be
granted and the case will be dismissed.
I. BACKGROUND
The following are facts as alleged in Plaintiff’s
complaint. In a motion to dismiss, the court accepts
Plaintiff’s factual allegations as true but makes no overt
finding as to truth or falsity. Kardules v. City of Columbus,
95 F.3d 1335, 1347 (6th Cir. 1996) (discussing standing);
Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937, 173
L. Ed. 2d 868 (2009) (regarding failure to state a claim).
On Sunday, August 5, 2018, Plaintiff attended a gun
show in Birch Run, Michigan. (ECF No. 1, PageID.10,
¶ 39.) While there, Plaintiff attempted to purchase a
firearm. (Id., ¶ 41.) The seller of the firearm received
a “delay” response from the National Instant Criminal
Background Check (“NICS”), a system designed and
operated by the FBI to conduct rapid background checks
for proposed firearm purchases. 28 C.F.R. § 25.6(c)(1)(iv)
(B) (“A ‘Delayed response . . . indicates that the firearm
transfer should not proceed pending receipt of a follow up
‘Proceed’ response from NICS or the expiration of three
business days . . . whichever occurs first.”). (Id., ¶ 42.) The
seller informed Plaintiff that the gun could not be sold at
that time, but that Plaintiff could return in three days
to complete the purchase. (Id., PageID.10-11, ¶¶ 43-44.)

11a
Appendix B
Plaintiff does not contest that the FBI background check
and a “delay” response were ordinary and legal.
Plaintiff contacted the seller at the end of the week.
(Id., PageID.11, ¶ 45.) The seller told Plaintiff that an FBI
agent, believed to be Defendant Chambers, visited the
seller’s place of business the day after Plaintiff’s purchase
inquiry. (Id.) The agent asked the seller what Plaintiff had
“filled out himself regarding the attempted purchase,”
told the seller that “we have a problem with the company
[Plaintiff] keeps,” and showed the seller a photograph of
Plaintiff “in a suit” with another individual believed to
be “of Middle Eastern descent,” asking the seller if he
recognized the other individual. (Id., ¶¶ 46-48.) The agent
then left contact information, including an email address
for “JR Chambers,” and asked that the seller pass the
information along to Plaintiff. (Id., PageID.12, ¶ 51.)
When Plaintiff contacted the seller some time later,
the seller told Plaintiff that he chose to not sell the gun
to Plaintiff, even though enough time had passed to allow
a legally cleared transaction, i.e., Plaintiff’s background
check was now listed as “open” after the three day “delay”
period. (Id., ¶ 52.) The seller explained to Plaintiff that he
“was no longer comfortable [selling Plaintiff the weapon]
because of the visit by and statements made by the FBI
agent regarding Plaintiff.” (Id.)
II. STANDARD
Article III Section 2 of the U.S. Constitution limits
judicial power to cases and controversies. Spokeo, Inc.

12a
Appendix B
v. Robins, 136 S.Ct. 1540, 1547, 194 L. Ed. 2d 635 (2016).
“Standing to sue is a doctrine rooted in the traditional
understanding of a case and controversy.” Id. “The
Supreme Court has enumerated the following elements
necessary to establish standing:
First, Plaintiff must have suffered an injury in
fact—an invasion of a legally-protected interest
which is (a) concrete and particularized; and
(b) actual or imminent, not conjectural or
hypothetical. Second, there must be a causal
connection between the injury and the conduct
complained of—the injury has to be fairly
traceable to the challenged action of the
defendant, and not the result of the independent
action of some third party not before the court.
Third, it must be likely, as opposed to merely
speculative, that the injury will be redressed
by a favorable decision.”
Parsons v. United States DOJ, 801 F.3d 701, 710 (6th Cir.
2015) (quoting Lujan v. Defenders of Wildlife, 504 U.S. 555,
560-61, 112 S. Ct. 2130, 119 L. Ed. 2d 351 (1992)). When
reviewing a motion to dismiss on the basis of standing,
the court “must accept as true all material allegations of
the complaint, and must construe the complaint in favor of
the complaining party.” Kardules, 95 F.3d at 1347 (quoting
Warth v. Seldin, 422 U.S. 490, 501, 95 S. Ct. 2197, 45 L.
Ed. 2d 343 (1975)). The plaintiff does, however, bear the
burden of establishing standing and must “clearly allege
facts demonstrating each element.” Parsons, 801 F.3d at
710 (quoting Warth, 422 U.S. at 518).

13a
Appendix B
III. DISCUSSION
Standing has three elements: injur y in fact,
traceability, and redressability. Parsons, 801 F.3d at 710.
For injury in fact, “a plaintiff must show that he or she
suffered ‘an invasion of a legally protected interest’ that
is ‘concrete and particularized’ and ‘actual or imminent,
not conjectural or hypothetical.’” Spokeo, 136 S.Ct. at 1548
(citations removed). “For an injury to be particularized, it
must affect the plaintiff in a personal and individual way.”
Id. (citations removed). To be concrete, an injury “must
be de facto; that is, it must actually exist.” Id.
The requirement of alleging an injury-in-fact is met
in this case. Plaintiff is alleging a violation of his right
to purchase a firearm. (ECF No. 1, PageID.16, ¶¶ 91
(For Plaintiff’s Privacy Act claim: “[B]ut for the actions
of Defendants, the gun seller would have sold Plaintiff
the gun after the delay notification expired.”), 111-13
(Plaintiff’s procedural due process claim), 123 (Plaintiff’s
§ 1981 claim).) In Plaintiff’s response to Defendants’
motion, Plaintiff relies only upon this injury to establish
standing. 1 (ECF No. 17, PageID.139 (emphasis and
1. The court will take Plaintiff ’s arguments as they are
presented, as it is not the job of the court to search out and develop
other potentially successful issues or strategies. Estate of Barnwell v.
Grigsby, -- Fed. App’x --, 801 Fed. Appx. 354, 2020 U.S. App. LEXIS
2109, 2020 WL 290425, at *13 (6th Cir. 2020) (citing Cruz-Samayoa
v. Holder, 607 F.3d 1145, 1154-55 (6th Cir. 2010)) (“[A]n issue not
raised in an opening brief is deemed waived.”); McPherson v. Kelsey,
125 F.3d 989, 995-96 (6th Cir. 1997) (citations removed) (“Issues
averted to in a perfunctory manner, unaccompanied by some effort
at developing argumentation, are deemed waived. It is not sufficient

14a
Appendix B
citations removed) (“Plaintiff’s Complaint challenges the
prohibited disclosure and interference by the FBI and/or
its agents that make any sale of a firearm impracticable
following the delay notification the NICS search produces
when Plaintiff attempts to purchase a firearm.”);
id., PageID.141 (“Plaintiff’s complaint satisfies [the]
traceability requirement, as it sufficiently demonstrates
that but for Defendants’ prohibited disclosures and
interference with Plaintiff’s attempted gun purchase,
the seller would have sold Plaintiff the firearm.”).) Being
denied the right to purchase a firearm is concrete and real.
District of Columbia v. Heller, 554 U.S. 570, 595, 128 S. Ct.
2783, 171 L. Ed. 2d 637 (2008) (“[T]he Second Amendment
conferred an individual right to keep and bear arms”);
Nat’l Rifle Ass’n v. Magaw, 132 F.3d 272, 282-84 (6th
Cir. 1997) (finding injury-in-fact to where manufacturers
and middlemen could not engage in firearm commercial
transactions). It is also particularized to Plaintiff himself.
Magaw, 132 F.3d at 282-84.
The court’s finding conforms to the reasoning of
another judge of this court who dismissed a very similar
lawsuit filed by Plaintiff in 2018, in part for lack of standing.
Turaani, 316 F.Supp.3d 998 (Drain, J.). There too Plaintiff
alleged that FBI agents made an illegal communication
to a gun seller supposedly revealing that Plaintiff was
under FBI investigation. Id. at 1005-06. Plaintiff also
included a claim that he was harmed due to a three-day

for a party to mention a possible argument in the most skeletal way,
leaving the court to put flesh on its bones.”).

15a
Appendix B
delay, initiated by NICS. 2 28 C.F.R. § 25.6(c)(1)(iv)(B).
After the three-day delay, the seller allegedly refused to
sell a firearm to Plaintiff, despite being legally entitled
to do so. Id. Plaintiff alleged that the seller would not sell
Plaintiff a firearm due to the FBI’s communication. Id. The
lawsuit named an FBI agent, the U.S. Attorney General,
the Director of the FBI, the Director of the TSC, and
the Deputy Director of the Bureau of Alcohol, Tobacco,
Firearms, and Explosives as defendants. Id. at 1004. The
court found that Plaintiff had alleged an injury in fact. Id.
at 1007. The court reasoned that the “constructive denial,”
in which the gun seller was influenced by the call from
the FBI to not sell Plaintiff a weapon, was particularized
because it “impact[ed] [Plaintiff’s] individual right to
obtain a firearm.” Id. The injury was concrete because
“[Plaintiff] contend[ed] that the delay transpired and that
the store clerk continues to deny his request to purchase
the gun.” Id. Additionally, the court found that the threeday delay itself constituted an injury in fact. Id.
The central issue in dispute is traceability. When
“standing depends on the unfettered choices made by
independent actors not before the courts and whose
exercise of broad and legitimate discretion the courts
cannot presume either to control or to predict,” the
plaintiff must “adduce facts showing that those choices
have been or will be made in such a manner as to produce
causation and permit redressability of injury.” Lujan, 504
U.S. at 562 (quoting ASARCO Inc. v. Kadish, 490 U.S. 605,
615, 109 S. Ct. 2037, 104 L. Ed. 2d 696 (1989)).
2. Here, Plaintiff affirmatively states that he “does not challenge
the three-day delay . . . in this suit.” (ECF No. 17, PageID.139.)

16a
Appendix B
Crawford v. S. Dep’t of Treasury, 868 F.3d 438, 457
(6th Cir. 2017) is especially instructive. The plaintiffs in
Crawford challenged the Foreign Account Tax Compliance
Act (“FATCA”), as well as other newly enacted banking
statutes and international agreements. The new laws
mandated that foreign financial institutions (“FFIs”)
disclose banking information of Americans and threatened
significant fines if the institutions did not comply. The
plaintiffs alleged that foreign banks refused to provide
financial services to them and required additional
disclosures, more than what the law demanded, due to
increased compliance costs. The court classified the
plaintiff’s alleged harms as “indirect” and affirmed
dismissal of the complaint for lack of standing. Id. at 456.
The court reasoned that “Plaintiffs’ alleged harms arise
not from the FFIs’ acting under the command of FATCA
or an IGA, but rather from the FFI’s voluntary choice to
go above and beyond FATCA and the IGAs.” Id. at 457
(emphasis in original). It added that “although an injury
‘produced by’ a defendant’s ‘determinative or coercive
effect’ upon a third party . . . may suffice for standing, an
injury that results from the third party’s voluntary and
independent actions or omissions does not.” Crawford v.
U.S. Dep’t of Treasury, 868 F.3d 438, 457 (6th Cir. 2017)
(citing Bennett v. Spear, 520 U.S. 154, 169, 117 S. Ct. 1154,
137 L. Ed. 2d 281 (1997)). The court used the law that
barred doctors from performing abortion procedures
in the Supreme Court case Roe v. Wade, 410 U.S. 113,
93 S. Ct. 705, 35 L. Ed. 2d 147 (1973) as an example of a
“determinative or coercive effect.” Id.
Taking the allegations in Plaintiff’s complaint as true,
Plaintiff has failed to establish traceability. Kardules,

17a
Appendix B
95 F.3d at 1347. Plaintiff’s essential argument is that
Defendants’ actions, by organizing and effectuating a
background-check review process and their discussion
with Plaintiff’s commercial counterpart, brought about
the seller’s reluctance to sell Plaintiff a firearm. Thus,
Plaintiff was allegedly denied the right to obtain a
weapon. What Plaintiff misses is any factual allegations
tying a “determinative and coercive” government action,
approaching the force of law, to his inability to purchase
a gun. Crawford, 868 F.3d at 457. It may be true that an
FBI agent, potentially Defendant Chambers, approached
the seller and disclosed confidential information that
could impact a seller’s decision. However, merely acting
to potentially influence the “voluntary and independent”
decision of a third-party does not itself create a direct
and traceable injury. Id. (denying standing for plaintiffs
who allegedly lost access to foreign bank accounts due to
the banks’ attempts to avoid increased compliance costs
incurred by a new law); ACLU v. NSA, 493 F.3d 644,
666-70 (6th Cir. 2007) (finding traceability lacking where
plaintiffs alleged that an illegal government wiretap
program chilled overseas parties from talking to plaintiffs
via phone); Simon v. E. Kentucky Welfare Rights Org., 426
U.S. 26, 40-46, 96 S. Ct. 1917, 48 L. Ed. 2d 450 (1976) (ruling
that plaintiffs lacked standing to sue the government for
denial of medical care allegedly due to a tax incentive
provided to hospitals); Clapper v. Amnesty Int’l USA, 568
U.S. 398, 413, 133 S. Ct. 1138, 185 L. Ed. 2d 264 (2013)
(Despite government actors requesting authorization
for surveillance ex parte and plaintiffs claiming that
it there is an “objectively reasonable likelihood” that a
court would approve a request for surveillance, the Court

18a
Appendix B
noted its “reluctan[ce] to endorse standing theories that
require guesswork as to how independent decisionmakers
will exercise their judgment” and found redressability
lacking).
Plaintiff includes no allegations that the FBI
applied force or coercion, or otherwise called upon legal
authority to command the seller to cutoff transactions
with Plaintiff. Crawford, 868 F.3d at 457 (finding legal
commands directed at third-party doctors sufficient to
establish standing for patients of those doctors); Turaani,
316 F.Supp.3d 998 (ruling an authoritative directive not
to sell Plaintiff a weapon for three days traceable to the
government); Mich. Bldg. & Constr. Trades Council
v. Snyder, 846 F. Supp. 2d 766, 778 (E.D. Mich. 2012)
(finding standing where a contracting party “do[es] not
have discretion” to contract under the law and “there
are no breaks in the chain of causation between . . . the
government action and the asserted injury.”).
The seller’s statement to Plaintiff that he was motivated
to refuse a firearm sale with Plaintiff following, or even
due to, a discussion with the FBI cannot alone establish
requisite “compulsion.” (ECF No. 1, PageID.12, ¶¶ 52, 55.)
An assertion of influence short of a “determinative and
coercive effect” is insufficient. Crawford, 868 F.3d at 457.
If this were not true, a plaintiff need only allege that a
third party was motivated to bring about a harm because
of the separate and distinct actions of a defendant, however
attenuated may have been the “effect,” and however free
to act was the third party. An assailant motivated by a
deranged reading of a children’s novel could make the

19a
Appendix B
novel’s author liable to victims, and a customer could sue
the government for losing business with a bank due to
admittedly increased compliance costs. Crawford, 868
F.3d at 456-57. This would expand the scope of judiciability
far beyond what has been established in this circuit and
by Supreme Court jurisprudence. Crawford, 868 F.3d at
456-57; Lujan, 504 U.S. at 562.
In sum, Plaintiff’s allegations are that the FBI, acting
through Defendant Chambers, approached the seller,
asked if Plaintiff filled out forms, told the seller “we have
a problem with the company [Plaintiff] keeps,” showed
the seller a photo of Plaintiff with an individual “of Middle
Eastern descent,” and left contact information. (ECF No.
1, PageID.11-12, ¶¶ 46-51.) Plaintiff admits that the seller
was legally entitled to sell the gun three days later, and
presents neither allegations nor suggestions of reasonable
inference that the seller was commanded, threatened, or
coerced by the FBI. (Id., PageID.12, ¶ 52; ECF No. 17,
PageID.140.) Instead, Plaintiff’s allegations show only
that the seller purposefully and in the exercise of his own
free will chose not to engage commercially with Plaintiff.
That is a decision left to the seller and the seller alone.
It was the result of the “unfettered choice[]” and “broad
and legitimate discretion,” even if the seller’s explanation
to Plaintiff referenced the seller’s contact with the FBI.
Lujan, 504 U.S. at 562. (ECF No. 1, PageID.12, ¶¶ 52,
55.) Plaintiff has failed to “adduce facts showing that
those choices [were] made in such a manner as to produce
causation” and has failed establish standing. Lujan, 504
U.S. at 562.

20a
Appendix B
The court’s finding conforms to the reasoning of the
court in Plaintiff’s prior lawsuit. Turaani, 316 F.Supp.3d
998. There the court reasoned that Plaintiff’s injury of
failing to buy a firearm after the three-day delay period
“is solely the result of the store proceeding with an
abundance of caution or, as the Sixth Circuit has stated,
going ‘above and beyond’ the law. Such ‘voluntary and
independent’ conduct by a third-party is insufficient
to adequately allege standing.” Id. at 1009 (quoting
Crawford, 868 F.3d at 457). Notwithstanding the legality
of the disclosure, there, like here, Plaintiff’s alleged injury
was only indirectly related to the defendants’ actions and
was instead the result of a third-party’s choice, free from
legal compulsion.
To be clear, the first Turaani court found that Plaintiff
did have an injury traceable to the government by the FBI
command to withhold sale of a firearm for three days. Id.
There, the government affirmatively ordered the store
clerk, under the color of the FBI’s legal authority, to deny
Plaintiff the purchase of a weapon. Here, Plaintiff is not
challenging the directed three day “delay” in Plaintiff’s
firearm purchase, and has not presented a harm traceable
to a “determinative and coercive” government action.
Crawford, 868 F.3d at 457. (ECF No. 17, PageID.139.)
The court’s decision also complies with Crawford.
Crawford, 868 F.3d 438. The Sixth Circuit rejected the
claim that a plaintiff could sue government officials for
losing access to financial services, allegedly caused by the
reaction of foreign banks to a higher level of government
regulation. Id. Those reactions were not mandated or

21a
Appendix B
compelled by law. Id. at 459. The court reasoned that “a
foreign bank’s choice either not to do business with [a
plaintiff] . . . is a choice voluntarily made by the bank and is
not fairly traceable to FATCA.” Id. Similarly, a gun seller’s
choice to not do business with Plaintiff was a voluntary
decision and was not a result of coercion or government
force. Plaintiff’s proffered injury lacks traceability to
Defendants’ actions. Lujan, 504 U.S. at 562.
The parties themselves devote no argument to the
issue of redressability, and with traceability lacking, the
court need not address it.
IV. CONCLUSION
The injury Plaintiff relies on to establish standing
is not traceable to the actions of Defendants. Plaintiff
has no standing, within the facts of this case, to sue
Defendants for being denied the right to acquire a firearm.
Accordingly,
IT IS ORDERED that Defendants Christopher A.
Wray, Charles H. Kable, IV, and Jayson R. Chambers’
Motion to Dismiss (ECF No. 14) is GRANTED. The case
is DISMISSED.
		
		
		

s/Robert H. Cleland
ROBERT H. CLELAND
UNITED STATES DISTRICT JUDGE

Dated: February 20, 2020

22a
Appendix
C
APPENDIX C
— OPINION
OF THE
UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF MICHIGAN,
SOUTHERN DIVISION, FILED JUNE 7, 2018
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN,
SOUTHERN DIVISION
Case No. 17-cv-14112
KHALID TURAANI,
Plaintiff,
v.
JEFFERSON BEAUREGARD SESSIONS, III,
IN HIS OFFICIAL CAPACITY, et al.,
Defendants.
United States District Court Judge
Gershwin A. Drain
United States M agistrate Judge
R. Steven Whalen
June 7, 2018, Decided;
June 7, 2018, Filed

23a
Appendix C
Opinion and Order Granting Official-Capacity
Defendants’ Motion to Dismiss [10] and Dismissing
Complaint as to Individual-Capacity
Defendant without Prejudice
I.

Introduction

Plaintiff Khalid Turaani commenced this action on
December 20, 2017. Dkt. No. 1. In the Complaint, he
contends that the Defendants improperly delayed (by three
days) his right to purchase a firearm and constructively
denied him that right. See id. The Defendants are an
Unnamed FBI Agent, in his individual capacity, and the
following individuals in their official capacity: Jefferson B.
Sessions, III, the Attorney General of the United States
of America; Christopher A. Wray, the Director of the
Federal Bureau of Investigation; Charles H. Kable, IV, the
Director of the Terrorist Screening Center; and Thomas
E. Brandon, the Deputy Director, Head of the Bureau of
Alcohol, Tobacco, Firearms and Explosives.
Turaani asserts a defamation claim against the
Unnamed FBI Agent in his individual capacity (Count I).
He also maintains that the official-capacity Defendants
violated his right to procedural due process under the
Fifth Amendment (Count II); substantive due process
under the Fifth Amendment (Count III); and equal
protection under the Fifth Amendment (Count IV).
Additionally, Turaani alleges that the official-capacity
Defendants violated the Administrative Procedure Act,
5 U.S.C. §§ 701-706 (“APA”), (Count V), and he asserts a
claim for injunctive and declaratory relief under 28 U.S.C.
§§ 2201, 2202 (Count VI).

24a
Appendix C
On April 5, 2018, the official-capacity Defendants
moved to dismiss Counts II-VI of the Complaint for lack
of subject-matter jurisdiction and failure to state a claim
upon which relief may be granted. Dkt. No. 10. Turaani
responded to the motion on April 26, 2018. Dkt. No. 12.
The official-capacity Defendants replied in support of the
motion on May 23, 2018. Dkt. No. 16.
Presently before the Court is the official-capacity
Defendants’ Motion to Dismiss Counts II-VI of the
Complaint for Lack of Subject-Matter Jurisdiction and
Failure to State a Claim [10]. The Court held a hearing
on this motion on Monday, June 4, 2018. For the reasons
detailed below, the Court will GRANT the official-capacity
Defendants’ Motion to Dismiss [10]. The Court lacks
subject-matter jurisdiction over certain claims asserted
by Turaani. The Court also concludes that Turaani has
failed to state a claim on Counts II-VI. That is, the Court
will dismiss his claims regarding procedural due process
(Count II), substantive due process (Count III), equal
protection (Count IV), the Administrative Procedure Act
(Count V), and injunctive and declaratory relief (Count
VI).
Additionally, as the claims against the official-capacity
Defendants will not survive the motion to dismiss and the
individual-capacity Defendant (the Unnamed FBI Agent)
has yet to receive service, the Court will DISMISS Count
I WITHOUT PREJUDICE.

25a
Appendix C
II. Background
Plaintiff Khalid Turaani is a United States citizen
domiciled in Michigan. Dkt. No. 1, p. 2 (Pg. ID 2). He
is the legal owner of three firearms, firearms which he
purchased between 2000 and 2016. Id. at p. 9 (Pg. ID 9).
This case concerns his inability to buy a fourth firearm, in
2017 and from Target Sports Orchard Lake in Michigan.
A.

Firearm Background Check Procedures

On June 24, 2017, after discussing Turaani’s request
to purchase a firearm with an FBI agent, a clerk at Target
Sports Orchard Lake refused to sell Turaani a gun. Id. at
p. 10 (Pg. ID 10). By way of background, the Brady Act,
18 U.S.C. §§ 921 et seq., requires that federal firearms
licensees (“FFL”) contact the National Instant Criminal
Background Check System (“NICS”) before selling a
firearm to any person. Id. at p. 5 (Pg. ID 5); see generally
28 C.F.R. § 25.1 et seq. The FBI manages the NICS, and
in Michigan, FFLs directly contact the FBI with certain
information about the potential purchaser. Dkt. No. 1,
p. 5 (Pg. ID 5); see also Dkt. No. 10, pp. 17-18 (Pg. ID
78-79). Using that information, a search is run in certain
databases, including the National Crime Identification
Center (“NCIC”). Dkt. No. 10, p. 18 (Pg. ID 79). The NCIC,
in turn, includes a sub-file on Known or Appropriately
Suspected Terrorists (“KST”). Dkt. No. 1, p. 12 (Pg. ID
12); see also Dkt. No. 10, p. 18 (Pg. ID 79). Plaintiff alleges
that, on the date of the firearm transaction, he was on a
No Fly List or Watch List, and thus, he was on a KST list.
Dkt. No. 1, p. 9 (Pg. ID 9).

26a
Appendix C
When a person on a KST list initiates a firearm
transaction, the background check results in a “delay”
response. 28 C.F.R. § 25.6(c)(1); see also Dkt. No. 10,
p. 19 (Pg. ID 80). To be sure, residence on a KST list,
standing alone, does not prohibit a person from legally
owning a firearm. See 18 U.S.C. § 922(g); see also Dkt. No.
10, p. 19 (Pg. ID 80). Rather, a delay response suspends
the transaction for three days while authorities further
investigate the individual. Dkt. No. 10, p. 19 (Pg. ID 80); see
also 28 C.F.R. § 25.6(c)(1)(iv)(B). A person may complete
the firearm transaction if the NICS responds “proceed”
or three days have passed from the delay response,
whichever occurs first. 28 C.F.R. § 25.6(c)(1)(iv)(B).
Conversely, a “deny” response occurs where federal
or state law prohibits a person from obtaining a firearm.
See id. at § 25.6(c)(1)(iv)(C); see also 18 U.S.C. § 922(g),
(n). If a person passes the background check, NICS will
respond “proceed.” 28 C.F.R. § 25.6(c)(1)(iv)(A).
B. Turaani’s Experience at Target Sports Orchard
Lake
As Target Sports Orchard Lake is an FFL, it
contacted the FBI when Turaani initiated the firearm
transaction. Dkt. No. 1, p. 10 (Pg. ID 10). A store clerk
began a NICS background check on Turaani, including
running Plaintiff’s name through the relevant databases.
Id. Turaani maintains that an FBI agent then called the
store clerk, informed him that Turaani was the subject
of an FBI investigation, and instructed him to delay the
transaction. Id. Following the FBI’s directions, the store

27a
Appendix C
clerk delayed the transaction. Id. at pp. 10-11 (Pg. ID 1011). The FBI, however, did not contact the store clerk again
regarding Turaani’s transaction and, of course, three days
have passed since Turaani attempted to purchase the
firearm. Id. at p. 10 (Pg. ID 10). Therefore, Turaani may
legally purchase the gun. See 28 C.F.R. § 25.6(c)(1)(iv)(B).
But Turaani contends that he has not been able to
purchase a gun from Target Sports Orchard Lake. He
alleges that the store will not sell him a gun until the
FBI has informed the store that he never was, or is no
longer, under investigation by the FBI. Dkt. No. 1, pp. 1011 (Pg. ID 10-11). He also asserts that because the store
clerk knows that he is or was under investigation by the
FBI, this news will spread throughout his Orchard Lake
community and thereby damage his reputation. Id. at pp.
16-17 (Pg. ID 16-17).
III.

Legal Standard

Federal Rule of Civil Procedure 12(b)(6) allows a
court to assess whether a plaintiff has stated a claim upon
which relief may be granted. See Fed. R. Civ. P. 12(b)(6).
“Federal Rule of Civil Procedure 8(a)(2) requires only ‘a
short and plain statement of the claim showing that the
pleader is entitled to relief,’ in order to ‘give the defendant
fair notice of what the . . . claim is and the grounds upon
which it rests.’” Bell Atlantic Corp. v. Twombly, 550 U.S.
544, 555, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007) (quoting
Conley v. Gibson, 355 U.S. 41, 47, 78 S. Ct. 99, 2 L. Ed. 2d
80 (1957)). “[E]ven though the complaint need not contain
‘detailed’ factual allegations, its ‘factual allegations must

28a
Appendix C
be enough to raise a right to relief above the speculative
level on the assumption that all of the allegations in the
complaint are true.’” Ass’n of Cleveland Fire Fighters
v. City of Cleveland, 502 F.3d 545, 548 (6th Cir. 2007)
(quoting Twombly, 550 U.S. at 555).
A court must construe the complaint in favor of a
plaintiff, accept the allegations of the complaint as true,
and determine whether plaintiff’s factual allegations
present plausible claims. Twombly, 550 U.S. at 570. But,
“the tenet that a court must accept as true all of the
allegations contained in a complaint is inapplicable to
legal conclusions.” Ashcroft v. Iqbal, 556 U.S. 662, 668,
129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009). To survive
a Rule 12(b)(6) motion, a plaintiff’s pleading for relief
must provide “more than labels and conclusions, and a
formulaic recitation of the elements of a cause of action
will not do.” Ass’n of Cleveland Fire Fighters, 502 F.3d
at 548 (quoting Twombly, 550 U.S. at 553-54). “Nor does
a complaint suffice if it tenders naked assertion[s] devoid
of further factual enhancement.” Iqbal, 556 U.S. at 678
(internal citations and quotations omitted). Instead, “a
complaint must contain sufficient factual matter, accepted
as true, to state a claim to relief that is plausible on its
face.” Id. (internal citations and quotation marks omitted).
The plausibility standard requires “more than a sheer
possibility that a defendant has acted unlawfully.” Id.
“[W]here the well-pleaded facts do not permit the court
to infer more than the mere possibility of misconduct, the
complaint has alleged—but it has not show[n]—that the
pleader is entitled to relief.” Id. at 679. (internal citations
and quotation marks omitted).

29a
Appendix C
IV. Discussion
The Plaintiff raises five claims against the officialcapacity Defendants. He contends that they violated his
right to procedural due process (Count II), to substantive
due process (Count III), and to equal protection of the
laws (Count IV). He also maintains that their actions
contravened the APA (Count V), and he raises an
independent claim for injunctive and declaratory relief
(Count VI). The Court will find that Plaintiff lacks
standing to assert claims regarding certain harms. In
addition, the Court will hold that none of these counts will
survive the Motion to Dismiss.
A.

Standing

Turaani principally claims that he has suffered harm
as a result of both the three-day delay of his firearm
purchase and the “constructive denial” of his Second
Amendment right. The Court will find that it has subjectmatter jurisdiction over his claims regarding the threeday delay of his Second Amendment rights. Conversely,
the Court will conclude that it lacks subject-matter
jurisdiction over Plaintiff’s constructive denial claim.
“Federal courts,” the Sixth Circuit has noted,
“have constitutional authority to decide only ‘cases’ and
‘controversies.’” Crawford v. Dep’t of Treasury, 868 F.3d
438, 452 (6th Cir. 2017) (quoting U.S. CONST. art. III
§ 2) (citing Muskrat v. United States, 219 U.S. 346, 31 S.
Ct. 250, 55 L. Ed. 246, 46 Ct. Cl. 656 (1911)). “And there
is no case or controversy if a plaintiff lacks standing to

30a
Appendix C
sue.” Duncan v. Muzyn, 885 F.3d 422, 427 (6th Cir. 2018)
(citing Spokeo, Inc. v. Robins, U.S. , 136 S. Ct. 1540, 1547,
194 L. Ed. 2d 635 (2016)). “A claimant bears the burden
of establishing standing and must show it ‘for each claim
he seeks to press.’” Hagy v. Demers & Adams, 882 F.3d
616, 620 (6th Cir. 2018) (quoting DaimlerChrysler Corp.
v. Cuno, 547 U.S. 332, 352, 126 S. Ct. 1854, 164 L. Ed. 2d
589 (2006)). If a claimant fails to establish standing, a court
must dismiss the complaint under Federal Rule of Civil
Procedure 12(b)(1). Lyshe v. Levy, 854 F.3d 855, 858 (6th
Cir. 2017) (citing Allstate Ins. Co. v. Glob. Med. Billing,
Inc., 520 F. App’x 409, 410-11 (6th Cir. 2013)).
“The ‘irreducible constitutional minimum’ of standing
comprises three elements: (1) an injury-in-fact, which is (2)
fairly traceable to the defendant’s challenged conduct, and
that in turn is (3) likely redressable by a favorable judicial
decision.” Duncan, 885 F.3d at 427 (quoting Spokeo, Inc.,
136 S. Ct. at 1547).
1.

Injury-in-fact

An injury-in-fact has two components, and Turaani
has adequately alleged them both. First, “an injury-in-fact
must be ‘particularized,’ meaning it ‘affect[s] the plaintiff
in a personal and individual way.’” Id. (second alteration in
original) (quoting Spokeo, Inc., 136 S. Ct. at 1548). Second,
it “must be ‘concrete,’ meaning that it ‘actually exist[s].’”
Id. (alteration in original) (quoting Spokeo, Inc., 136 S.
Ct. at 1548).
Turaani has plausibly pleaded injury-in-fact for
both the three-day delay and the constructive denial

31a
Appendix C
of his ability to purchase the firearm. These harms are
particularized, as they impact his individual right to
obtain a firearm. They are also concrete. He contends that
the delay transpired and that the store clerk continues
to deny his request to purchase the gun, although the
mandated three-day delay has ended.
2.

Causation

Not all of Turaani’s alleged injuries are fairly
traceable to Government conduct, however. Specifically,
Turaani properly pleads this element for the three-day
delay contentions, but does not for the constructive denial
allegations. Accordingly, he has standing for claims
involving the three-day delay, but he lacks standing for
claims concerning the constructive denial.
“[A] plaintiff generally lacks standing to seek its
redress,” the Sixth Circuit has explained, “[w]hen a
plaintiff’s alleged injury is the result of ‘the independent
action of some third party not before the court[.]’”
Crawford, 868 F.3d at 455 (quoting Simon v. E. Ky.
Welfare Rights Org., 426 U.S. 26, 42, 96 S. Ct. 1917, 48
L. Ed. 2d 450 (1976)) (citing Lujan v. Def. of Wildlife,
504 U.S. 555, 560-61, 112 S. Ct. 2130, 119 L. Ed. 2d 351
(1992); Shearson v. Holder, 725 F.3d 588, 592 (6th Cir.
2013); Ammex, Inc. v. United States, 367 F.3d 530, 533
(6th Cir. 2004)).
Turaani argues that his injuries are fairly traceable
to Government conduct because the Government (1)
delayed (by three days) his right to obtain a firearm and (2)

32a
Appendix C
constructively denied him the ability to purchase the gun.
According to Turaani, the constructive denial occurred
through the store clerk’s decision to halt the transaction
until the FBI has confirmed that Turaani is not, or never
was, the subject of an FBI investigation. Dkt. No. 1, p. 19
(Pg. ID 19).
First, Turaani plausibly pleads standing for the threeday delay because he alleges that the FBI called the store
clerk and instructed the clerk to delay the transaction.
This instruction obligated the store clerk to pause the
transaction until the FBI had responded “proceed” or
“deny,” or three days had passed from the delay response,
whichever had occurred first. 28 C.F.R. § 25.6(c)(1)(iv)(B).
Yet his allegation that the Government “constructively
denied” his right to purchase a firearm is not fairly
traceable to Government conduct. Turaani maintains
that no law prohibits him from obtaining a firearm and
that, after the three-day delay, the law permitted him
to complete the transaction. Therefore, the store clerk’s
voluntary and independent actions have caused him harm,
not Government conduct. This finding is fatal to Turaani’s
constructive denial claim.
A nd as the Government arg ues, Crawford is
illustrative. There, the relevant plaintiffs were current
or former American citizens with international ties,
largely residence abroad. 868 F.3d at 445. The plaintiffs
sued several government actors. They alleged, among
other things, that because of certain regulations which
applied to them as United States taxpayers having foreign

33a
Appendix C
accounts, some foreign financial institutions (“FFI”)
had refused to do business with them or mandated that
they disclose information not required by the disputed
regulations. Id. at 456.
The Sixth Circuit acknowledged that these claims
involved “indirect harm,” which “is an injury caused to a
plaintiff when the defendant’s unlawful conduct harms a
third party who in turn causes the plaintiff’s harm[.]” Id.
at 456 (citations omitted). After categorizing the harm
alleged, the Crawford panel held that these plaintiffs
lacked standing. The court reasoned that “[s]everal of
[p]laintiffs’ alleged harms ar[ose] not from FFIs’ acting
under the command of [the contested regulations], but
rather from the FFIs’ voluntary choice to go above and
beyond [the regulations].” Id. at 457. “FFIs may do so,”
the court explained, “by choosing not to do business with
certain individuals, whether to protect their own interests
in [regulatory] compliance or for some other reason.” Id.
at 457.
A similar situation has transpired here. Like the
Crawford plaintiffs, Turaani pleads indirect harm.
In particular, he maintains that the Government has
“constructively denied” him the ability to purchase the
firearm because the store clerk refuses to sell him the
firearm. And here, as in Crawford, all agree that the law
is not forcing the store clerk to refuse Turaani’s request.
In other words, there is no dispute that Turaani may
legally possess a firearm and that he was legally able to
complete the firearm transaction once three days had
passed from the delay response. The “constructive denial,”

34a
Appendix C
then, is solely the result of the store proceeding with an
abundance of caution or, as the Sixth Circuit has stated,
going “above and beyond” the law. Such “voluntary and
independent” conduct by a third-party is insufficient to
adequately allege standing. Id. at 457 (emphasis omitted)
(citing Bennett v. Spear, 520 U.S. 154, 169, 117 S. Ct. 1154,
137 L. Ed. 2d 281 (1997)).
Accordingly, Turaani has not plausibly alleged that his
inability to purchase a gun from the store clerk is fairly
traceable to Government action. Conversely, Turaani has
adequately pleaded that the three-delay in the firearm
transaction is fairly traceable to the official-capacity
Defendants’ conduct.
3.

Redressability

Finally, standing requires redressability, and Turaani
has plausibly alleged this element for the alleged threeday delay. “A claimant satisfies Article III’s redressability
requirement by showing there is ‘a likelihood that a
court decision in the [claimant’s] favor will redress the
injury alleged.’” United States v. Hall, 877 F.3d 676, 682
(6th Cir. 2017) (quoting Greater Cincinnati Coal. for the
Homeless v. City of Cincinnati, 56 F.3d 710, 715 (6th Cir.
1995)). Here, Turaani requests that the Court prevent
the Government from delaying his firearm transaction.
Therefore, an order from the Court would redress this
harm.
In light of the above, Turaani has standing for claims
involving the three-day delay of his firearm transaction.

35a
Appendix C
He lacks standing, however, to assert harm regarding
the official-capacity Defendants’ constructive denial of
his right to purchase the gun.
B. Procedural Due Process (Count II)
Plaintiff has not plausibly alleged a procedural
due process claim. “Procedural due process imposes
constraints on governmental decisions which deprive
individuals of ‘liberty’ or ‘property’ interests within
the meaning of the Due Process Clause of the Fifth or
Fourteenth Amendment.” Kaminski v. Coulter, 865 F.3d
339, 347 (6th Cir. 2017) (quoting Mathews v. Eldridge,
424 U.S. 319, 332, 96 S. Ct. 893, 47 L. Ed. 2d 18 (1976)).
And “the deprivation of property by state action is not
itself unconstitutional[.]” Id. (internal quotation marks
omitted) (quoting Christophel v. Kukulinsky, 61 F.3d 479,
485 (6th Cir. 1995)). Rather, “what is unconstitutional is
the deprivation of such an interest without due process
of law.” Id. (internal quotation marks omitted) (quoting
Kukulinsky, 61 F.3d at 485).
Procedural due process “is flexible and calls for
such procedural protections as the particular situation
demands.” Unan v. Lyon, 853 F.3d 279, 291 (6th Cir.
2017) (internal quotation marks omitted) (quoting Rosen
v. Goetz, 410 F.3d 919, 928 (6th Cir. 2005)). It is a function
of “weigh[ing] the private interest at stake; ‘the risk of
an erroneous deprivation’; the government’s interest,
including the burden of imposing additional procedural
requirements; and ‘the probable value, if any, of additional
or substitute procedural safeguards.’” Id. (quoting

36a
Appendix C
Mathews, 424 U.S. at 335). Finally, plaintiffs asserting
procedural due process claims must also properly plead
prejudice. Shoemaker v. City of Howell, 795 F.3d 553, 563
(6th Cir. 2015) (quoting Graham v. Mukasey, 519 F.3d 546,
549-50 (6th Cir. 2008)).
As an initial matter, Plaintiff ’s procedural due
process claim fails because he has not adequately alleged
prejudice. Prejudice requires well-pled allegations “that
the due process violations led to a substantially different
outcome from that which would have occurred in the
absence of those violations.” Id. (quoting Graham, 519
F.3d at 549-50). First, because Turaani appeared on a
No Fly List or Watch List, the FBI would have delayed
the firearm transaction regardless of any alleged due
process violations. Specifically, 28 C.F.R. § 25.8(g)(2)
provides that “[i]n cases where potentially disqualifying
information is found in response to an FFL query, the
NICS Representative will provide a ‘Delayed’ response
to the FFL.” Turaani’s status on the aforementionedsecurity lists constitutes “potentially disqualifying
information.” Indeed, Plaintiff acknowledges that all
firearm transactions involving persons on such lists are
delayed. Dkt. No. 1, p. 12 (Pg. ID 12).
Second, he fails to properly plead prejudice for the
“constructive denial” claim. After the expiration of the
three-day delay, the law permitted him to complete the
firearm transaction. Therefore, as outlined in the Court’s
standing analysis, he does not assert prejudice from the
official-capacity Defendants’ conduct. Instead, he asserts
prejudice from the store clerk’s actions.

37a
Appendix C
Beyond prejudice, the relevant considerations also
indicate that Turaani has not adequately alleged a
procedural due process violation.
1.

Private Interest

Turaani’s interests at stake are his Second Amendment
right and his reputation. Dkt. No. 12-1, p. 16 (Pg. ID 128).
Only the former interest warrants due process protection,
however.
Due process, of course, protects Turaani’s Second
Amendment right to possess a gun. All agree that he may
legally possess a firearm.
Due process does not recognize Turaani’s interest in
his reputation, however. Ordinarily, “[t]he Due Process
Clause of the [Fifth] Amendment protects an individual’s
liberty interest in their ‘reputation, good name, honor,
and integrity.’” Crosby v. Univ. of Ky., 863 F.3d 545,
555 (6th Cir. 2017) (quoting Quinn v. Shirey, 293 F.3d
315, 319 (6th Cir. 2002)). But there are two limitations to
this interest. First, “the alleged damage must be tied to
‘[s]ome alteration of a right or status ‘previously recognized
by state law.’” Id. (quoting Quinn, 293 F.3d at 319). Second,
“[t]hat liberty interest is impugned when a state actor
‘stigmatize[s]’ an individual by means of ‘voluntary, public
dissemination of false information’ about the individual.”
Id. (quoting Quinn v. Shirey, 293 F.3d at 320).
Turaani is correct that the FBI agent violated 28
C.F.R. § 25.8(g)(2) by disclosing that Turaani was the

38a
Appendix C
target of an FBI investigation. That provision mandates
that the FBI “only provide a response of ‘Proceed’
or ‘Delayed’ (with regard to the prospective firearms
transfer),” and demands that the FBI “not provide the
details of any record information about the transferee.” Id.
But he fails on the second step. He does not plausibly
allege that the FBI agent made a false statement. Indeed,
the Complaint is absent of allegations indicating that
was not under investigation by the FBI. Turaani instead
maintains that the statement at issue “falsely created
the impression that Plaintiff has committed or will be
charged with a crime.” Dkt. No. 1, p. 16 (Pg. ID 16). What
is more, Turaani pleads facts suggesting that he was
the target of an FBI investigation during the relevant
period. In particular, he asserts that when he attempted
to purchase the firearm, he was on a No Fly List, a Watch
List, or both. Id. at pp. 9, 19 (Pg. ID 9, 19). Turaani, then,
has not plausibly pleaded that the FBI agent made a false
statement. Therefore, the Court will only recognize his
Second Amendment interest.
2. Government Interest
The Government has a “compelling” interest in the
regulation of firearms sales. See Tyler v. Hillsdale Cty.
Sheriff’s Dep’t, 837 F.3d 678, 693 (6th Cir. 2016) (en banc)
(citing Washington v. Glucksberg, 521 U.S. 702, 735, 117 S.
Ct. 2258, 117 S. Ct. 2302, 138 L. Ed. 2d 772 (1997); United
States v. Salerno, 481 U.S. 739, 747, 107 S. Ct. 2095, 95
L. Ed. 2d 697 (1987); Schall v. Martin, 467 U.S. 253, 264,
104 S. Ct. 2403, 81 L. Ed. 2d 207 (1984)).

39a
Appendix C
3.

Probable Value of Additional Safeguards

Additional safeguards would have little probable value
for the three-day delay, the constructive denial, and the
disclosure that he was the target of an FBI investigation.
The three-day delay complied with federal regulations and
did not violate his procedural due process rights. There
is no dispute that Plaintiff was on a Watch List or No
Fly List, and that inclusion on such lists triggers a delay
response. See 28 C.F.R. § 25.8(g)(2); see also Dkt. No. 1,
p. 12 (Pg. ID 12). Thus, additional safeguards would not
be particularly valuable.
Additional safeguards would likewise have little to no
value for the constructive denial claim: The official-capacity
Defendants are not preventing him from completing the
firearm transaction. The store clerk, rather, is the reason
he has not purchased the firearm.
Lastly, additional safeguards for the allegedly
improper disclosure would have minimal probable value.
The rule prohibiting such disclosures is clear and the FBI
takes precautions to prevent these occurrences, including
through limiting NICS access “to the initiation of a
NICS background check in connection with the proposed
transfer of a firearm” and having the FBI “periodically
monitor telephone inquiries to ensure proper use of the
[NICS] system.” 28 C.F.R. § 25.8(g)(1), (3).
In light of the above, Turaani’s procedural due process
claim will not survive the motion to dismiss.

40a
Appendix C
C.

Substantive Due Process (Count III)

Plaintiff asserts a substantive due process claim, which
is best understood as a Second Amendment challenge to
the three-day delay of the firearm transaction. This claim
is unmeritorious.
“Substantive due process is ‘the doctrine that
governmental deprivations of life, liberty or property are
subject to limitations regardless of the adequacy of the
procedures employed.’” In re City of Detroit, Mich., 841
F.3d 684, 699 (6th Cir. 2016) (quoting Range v. Douglas,
763 F.3d 573, 588 (6th Cir. 2014)). “The class of interests
it protects,” the Sixth Circuit has explained, “is ‘narrower
than those protected by procedural due process.’” Id.
(quoting Range, 763 F.3d at 588 n.6). Indeed, “[s]ubstantive
due process affords only those protections so rooted
in the traditions and conscience of our people as to be
ranked as fundamental.” Id. (internal quotation marks
omitted) (quoting EJS Props., LLC v. City of Toledo, 698
F.3d 845, 862 (6th Cir. 2012)). The fundamental rights
contemplated by substantive due process “are ‘implicit in
the concept of ordered liberty, such that neither liberty
nor justice would exist if they were sacrificed.’” Id. at 700
(quoting Glucksberg, 521 U.S. at 721). “Substantive-dueprocess claims are ‘loosely divided into two categories:
(1) deprivations of a particular constitutional guarantee;
and (2) actions that shock the conscience.’” Doe v. Miami
Univ., 882 F.3d 579, 597 (6th Cir. 2018) (quoting Valot v.
Se. Local Sch. Dist. Bd. of Educ., 107 F.3d 1220, 1228 (6th
Cir. 1997)).

41a
Appendix C
Turaani’s claims largely relate to the former. He
asserts that the Government infringed upon his Second
Amendment rights, and all agree that substantive due
process protects Second Amendment rights. The Second
Amendment reads: “A well regulated Militia, being
necessary to the security of a free State, the right of the
people to keep and bear Arms, shall not be infringed.” U.S.
Const. amend. II. And it secures “the right of law-abiding,
responsible citizens to use arms in defense of hearth and
home.” Tyler, 837 F.3d at 685 (internal quotation marks
omitted) (quoting District of Columbia v. Heller, 554 U.S.
570, 635, 128 S. Ct. 2783, 171 L. Ed. 2d 637 (2008)).
In this Circuit, courts conduct a two-part analysis
when deciding Second Amendment challenges. See United
States v. Greeno, 679 F.3d 510 (6th Cir. 2012). “The first
step ‘asks whether the challenged law burdens conduct
that falls within the scope of the Second Amendment
right, as historically understood.’” Tyler, 837 F.3d at 685
(quoting Greeno, 679 F.3d at 518). Here, because all agree
that Turaani may legally possess a firearm, there is no
dispute that the burden that 28 C.F.R. § 25.6(c)(1)(iv)(B)
imposes on Turaani falls within the scope of the Second
Amendment.
The next step in the Greeno framework requires that
courts “ascertain the appropriate level of scrutiny and
examine the ‘strength of the government’s justification
for restricting or regulating the exercise of Second
Amendment rights.’” Tyler, 837 F.3d at 686 (quoting
Greeno, 679 F.3d at 518). Turaani argues that strict
scrutiny applies to his challenge, whereas the Government
counters that intermediate scrutiny is appropriate.

42a
Appendix C
The Court will find that the Government takes the
better view. Indeed, the Plaintiff cites to no authority
showing that courts have applied strict scrutiny to a
Second Amendment challenge. Numerous courts, on the
other hand, have applied intermediate scrutiny to Second
Amendment challenges. See, e.g., Stimmel v. Sessions, 879
F.3d 198, 206 (6th Cir. 2018) (rejecting plaintiff’s request to
apply strict scrutiny because “his position runs counter to
the clear preference of most appellate courts for applying
intermediate scrutiny to [18 U.S.C.] § 922(g) challenges.”).
To be sure, the appropriate level of scrutiny turns
on “(1) how close the law comes to the core of the Second
Amendment right, and (2) the severity of the law’s burden
on the right.” Tyler, 837 F.3d at 690 (internal quotation
marks omitted) (quoting United States v. Chovan, 735
F.3d 1127, 1138 (9th Cir. 2013)) (citing United States
v. Chester, 628 F.3d 673, 682 (4th Cir. 2010)). 28 C.F.R.
§ 25.6(c)(1)(iv)(B), as applied here, comes close to the core
Second Amendment right. See id. at 685 (citing Heller,
554 U.S. at 635). Yet “[t]he risk inherent in firearms and
other weapons distinguishes the Second Amendment right
from other fundamental rights that have been held to be
evaluated under a strict scrutiny test.” Id. at 691 (internal
quotation marks omitted) (quoting Bonidy v. U.S. Postal
Serv., 790 F.3d 1121, 1126 (10th Cir. 2015)).
What is more, this regulation barely burdens Turaani’s
Second Amendment right. Unlike laws that prohibit gun
ownership and thereby impose a substantial burden on
the right, this regulation simply required Turaani to wait
three days before completing the firearm transaction. Id.

43a
Appendix C
at 692 (concluding a law that prohibited gun ownership by
certain individuals placed a substantial burden on those
persons’ Second Amendment rights). This minimal burden
suggests that it would be unwise for the Court to apply
strict scrutiny to the regulation contested here.1
The Court will apply intermediate scrutiny, and
in doing so, will determine that 28 C.F.R. § 25.6(c)(1)
(iv)(B) does not violate Plaintiff’s Second Amendment
right. “While the vocabulary of intermediate scrutiny
varies across courts, ‘all forms of the standard require
(1) the government’s stated objective to be significant,
substantial, or important; and (2) a reasonable fit between
the challenged regulation and the asserted objective.’”
Id. at 693 (quoting Chovan, 735 F.3d at 1139; citing Clark
v. Jeter, 486 U.S. 456, 461, 108 S. Ct. 1910, 100 L. Ed.
2d 465 (1988)). “All that is required is a fit that is not
necessarily perfect, but reasonable; that represents not
necessarily the single best disposition but one whose
scope is in proportion to the interest served.” Id. (internal
quotation marks omitted) (quoting Neinast v. Bd. of Trs.
of Columbus Metro. Library, 346 F.3d 585, 594 (6th Cir.
2003)).

1. To the extent Plaintiff contends that this regulation violates
his substantive due process rights because it shocks the conscience,
the minimal burden imposed by this regulation belies his argument.
Typically, behavior that shocks the conscience is an act “‘intended
to injure’ without any justifiable government interest[.]” See Range,
763 F.3d at 590 (quoting Cnty. of Sacramento v. Lewis, 523 U.S. 833,
848-49, 118 S. Ct. 1708, 140 L. Ed. 2d 1043 (1998)). The circumstances
here are inapposite.

44a
Appendix C
As noted in Part IV, Section B.2 of this decision, the
Government has a compelling interest in regulating gun
sales. See id. And here, there is a reasonable fit between
28 C.F.R. § 25.8 and the Government interest in regulating
firearm sales. The Government uses the three-day delay
to investigate the potentially disqualifying information
identified in the NICS. Therefore, this regulation
reasonably fits the Government’s objective of ensuring
that unqualified persons do not obtain guns.
For the above-stated reasons, the Court is unpersuaded
by Turaani’s Second Amendment and substantive due
process arguments contesting 28 C.F.R. § 25.8.
D.

Equal Protection (Count IV)

Turaani’s equal protection claim will also not survive
the motion to dismiss. Equal protection challenges
regarding the federal government, and therefore asserted
under the Fifth Amendment, are subject to the same
standard as challenges to state action, which relate to
the Fourteenth Amendment. Stimmel, 879 F.3d at 212
(citing United States v. Angel, 355 F.3d 462, 471 (6th Cir.
2004)). “To state an equal protection claim, a plaintiff must
adequately plead that the government treated the plaintiff
disparately as compared to similarly situated persons and
that such disparate treatment either burdens a fundamental
right, targets a suspect class, or has no rational basis.” Id.
(internal quotation marks omitted) (quoting Ctr. for Bio—
Ethical Reform, Inc. v. Napolitano, 648 F.3d 365, 379
(6th Cir. 2011)). “In determining whether individuals are
similarly situated,” the Sixth Circuit has instructed that
“a court should not demand exact correlation, but should

45a
Appendix C
instead seek relevant similarity.” Id. (internal quotation
marks omitted) (quoting Bench Billboard Co. v. City of
Cincinnati, 675 F.3d 974, 987 (6th Cir. 2012)).
Turaani is of Palestinian origin and is a practicing
Muslim. Relying on these characteristics, he contends
that he is similarly situated to other Palestinians and
practicing Muslims. The Court is unconvinced.
As the official-capacity Defendants argue, the relevant
similarity here is residence on a national security list, e.g.
a Watch List or No Fly List. See Dkt. No. 10, pp. 40-41 (Pg.
ID 101-02). The Complaint lacks facts indicating that the
Government has treated him differently than it has treated
other individuals on those lists. For example, Turaani
concedes that when individuals on such lists initiate
firearm transactions, their transactions are “automatically
delayed.” Dkt. No. 1, p. 12 (Pg. ID 12). His failure to
plead specific facts suggesting that the Government has
treated him differently than other individuals on national
security lists is fatal to his equal protection claim. See,
e.g., Hall v. Callahan, 727 F.3d 450, 457 (6th Cir. 2013)
(dismissing equal protection claim because plaintiffs failed
to identify similarly situated groups and to explain how the
contested statute treated them differently than similarly
situated individuals). Consequently, the Court will grant
the official-capacity Defendants’ Motion to Dismiss on
Turaani’s equal protection claim.
E. APA (Count V)
According to Turaani, the official-capacity Defendants
violated the APA because they “either deleted the

46a
Appendix C
[transaction] records too early or wrote that the NTN was
invalid in order to reach the time period when records
may be purged.” Dkt. No. 1, p. 14 (Pg. ID 14). Additionally,
Plaintiff alleges that he appealed the “constructive denial”
of the transaction eight-seven days after it occurred.
These arguments are unavailing.
“The APA authorizes aggrieved individuals to seek
judicial review of agency decisions, subject to certain
conditions.” Berry v. U.S. Dep’t of Labor, 832 F.3d 627,
632 (6th Cir. 2016) (citing 5 U.S.C. § 702). And it “requires
[courts] to uphold agency action unless it is arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” ECM BioFilms, Inc. v. Fed. Trade
Comm’n, 851 F.3d 599, 612 (6th Cir. 2017) (internal
quotation marks omitted) (quoting Nat’l Truck Equip.
Ass’n v. Nat’l Highway Traffic Safety Admin., 711 F.3d
662, 667 (6th Cir. 2013)).
Turaani maintains that an APA violation occurred
here because the transaction files were not preserved for
eight-seven days after he had attempted to purchase the
firearm. But taking his allegations as true, as the Court
must, the Government’s conduct was not unlawful. Under
28 C.F.R. § 25.9(b)(ii), “NICS Audit Log records relating
to transactions in an open status, except the NTN and
date, will be destroyed after not more than 90 days from
the date of inquiry.” 2 In sum, ninety days is the outer limit
2. Turaani’s transaction was under “open status” as the FBI
directed the store clerk to delay the transaction and never followed
up with a “proceed” or “deny” response. 28 C.F.R. § 25.2 defines
“open” as “those non-canceled transactions where the FFL has not

47a
Appendix C
at which the NICS may preserve a transaction file. The
deletion of his audit log records after eighty-seven days,
then, was not unlawful.
To the extent that the Government failed to keep a
record of his NTN and date, as this provision requires,
Turaani has plausibly alleged that the Government
erred. But any error was harmless, given that the FBI
appropriately deleted the rest of his file and the NTN
and date offer relatively little insight into the transaction
here. See ECM BioFilms, Inc., 851 F.3d at 612 (noting that
courts “appl[y] a harmless-error rule to APA cases, such
that a mistake that has no bearing on the ultimate decision
or causes no prejudice shall not be the basis for reversing
an agency’s determination.” (citing Sierra Club v. Slater,
120 F.3d 623, 637 (6th Cir. 1997); Rabbers v. Comm’r Soc.
Sec. Admin., 582 F.3d 647, 654-55 (6th Cir. 2009))).
Therefore, Turaani has not adequately pleaded a
violation of the APA.
F.

Injunctive and Declaratory Relief (Count VI)

In his last count, Turaani requests injunctive and
declaratory relief as an independent cause of action.
Dkt. No. 1, pp. 27-28 (Pg. ID 27-28). Perhaps realizing
that injunctive and declaratory relief are remedies and
been notified of the final determination.” The section continues, in
relevant part, that “[a]n ‘open’ response does not prohibit an FFL
from transferring a firearm after three business days have elapsed
since the FFL provided to the system the identifying information
about the prospective transferee.” Id.

48a
Appendix C
not independent causes of action, Turaani retracts this
count in his response to the Motion to Dismiss. Dkt. No.
12-1, p. 25 (Pg. ID 137). He is right to do so. See Goryoka
v. Quicken Loan, Inc., 519 F. App’x 926, 929 (6th Cir.
2013) (rejecting claims for quiet title and injunctive
relief because “these requests are remedies and are not
separate causes of action.”). Thus, the Court will grant
the official-capacity Defendants’ Motion to Dismiss the
count for injunctive and declaratory relief.
V. Conclusion
The Plaintiff raises several claims against the officialcapacity Defendants. He maintains that they abridged his
right to procedural due process (Count II), substantive
due process (Count III), and equal protection (Count IV).
Turaani also argues that the official-capacity Defendants
failed to comply with the APA (Count V), and he asserts as
a standalone count a claim for injunctive and declaratory
relief (Count VI). In response, the Government moved
to dismiss the complaint for lack of subject-matter
jurisdiction and for failure to state a claim upon which
relief may be granted [10]. The Court will GRANT the
Motion to Dismiss [10]. In particular, the Court will find
that Plaintiff lacks standing to raise claims regarding
the constructive denial of his rights. Even though he has
standing for other allegations of harm, his claims will not
survive the Motion to Dismiss. On Counts II-VI of the
Complaint, the Court will conclude that Turaani has failed
to state a claim upon which relief may be granted. Given
this finding and the lack of service as to the individualcapacity Defendant (the Unnamed FBI Agent), the Court
will DISMISS Count I WITHOUT PREJUDICE.

49a
Appendix C
IT IS SO ORDERED.
Dated: June 7, 2018
/s/ Gershwin A. Drain
GERSHWIN A. DRAIN
United States District Judge

